<html>
<title> - HOMELAND SECURITY IN THE MARITIME DOMAIN AWARENESS AND VESSEL TRACKING</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





                   HOMELAND SECURITY IN THE MARITIME
                      ENVIRONMENT: MARITIME DOMAIN
                     AWARENESS AND VESSEL TRACKING

=======================================================================

                             FIELD HEARING

                               before the

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 26, 2007

                               __________

                           Serial No. 110-88

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHICS) NOT AVAILABLE IN TIFF FORMAT]


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
48-983 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California          PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON-LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina         MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel
                    Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                 ______

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                LORETTA SANCHEZ, California, Chairwoman

JANE HARMAN, California              MARK E. SOUDER, Indiana
ZOE LOFGREN, California              BOBBY JINDAL, Louisiana
SHEILA JACKSON-LEE, Texas            DAVID G. REICHERT, Washington
JAMES R. LANGEVIN, Rhode Island      MICHAEL T. McCAUL, Texas
HENRY CUELLAR, Texas                 GUS M. BILIRAKIS, Florida
AL GREEN, Texas                      PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                         Alison Rosso, Director
                         Denise Krepp, Counsel
                       Carla Zamudio-Dolan, Clerk
        Mandy Bowers, Minority Senior Professional Staff Member

                                  (II)
















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Loretta Sanchez, a Representative in Congress, and 
  Chairwoman, Subcommittee on Border, Maritime, and Global 
  Counterrorism..................................................     1
The Honorable Gus. M. Bilirakis, a Representative in Congress 
  from the State.................................................     2

                               Witnesses

Mr. Stephen D. Dryden, President and CEO, The Mariner Group:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Colonel William H. Janes (U.S. Army, Ret.) Director, Florida 
  Office of Drug Control and Assistant Secretary, Substance Abuse 
  and Mental Health, Department of Children and Families:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Captain Karl Schultz, Commander, U.S. Coast Guard Sector Miami
  Oral Statement.................................................     4
  Prepared Statement.............................................     6

                             For the Record

Dr. Fran Bohnsack, Executive Director, Miami River Marine Group:
  Preapred Statement.............................................    24

 
 HOMELAND SECURITY IN THE MARITIME DOMAIN AWARENESS AND VESSEL TRACKING

                              ----------                              


                       Monday, November 26, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                          Subcommittee on Border, Maritime,
                               and Global Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:00 p.m., at 
Miami City Hall, 3500 Pan American Drive, Miami, Florida, Hon. 
Loretta Sanchez [chairwoman of the subcommittee] presiding.
    Present: Representatives Sanchez and Bilirakis.
    Ms. Sanchez. Good afternoon. I am pleased that this 
Subcommittee is able to hold this Field Hearing in Miami, and I 
would like to start by thanking Congressman Bilirakis for his 
interest in this hearing, and to thank our witnesses today for 
agreeing to testify, especially at the end of a Thanksgiving 
holiday. Thank you for being here.
    And I would also like to thank the City of Miami for 
allowing us to use this space today to hold the hearing.
    Maritime security is an incredibly important priority for 
this Subcommittee. In fact, it is carried in our name. Our 
nation's maritime ports play a critical role in America's 
economy, and in our day-to-day lives for many of us.
     But, as we have gone to take a look at different ports 
this past year in particular, we have come across the 
realization that there is not a one-size-fits-all solution to 
our port security. Every port that I have visited has been 
incredibly interesting, and yet very diverse than the last one 
I had been to.
    Of course, the ports that I am most familiar with are the 
Long Beach/Los Angeles ports, the largest system that we have 
here in our nation. But, again, they have different challenges, 
and opportunities, than the rest of the ports that we have here 
in the United States. So it was a really great visit this 
morning at the Port of Miami, take a look at the particulars 
for that port.
    And I want to thank everyone at the Port of Miami, Miami-
Dade County, the Coast Guard, our customs and border 
protection, and all the related parties that helped us this 
morning with respect to taking a look at the particulars of the 
Port of Miami.
    One of the distinctive characteristics of the Port of Miami 
is the high volume of cruise ship vessel traffic, which has 
earned the port this distinction of The Cruise Capital of the 
World.
    In addition to cruise ships, the Port of Miami is also the 
largest container port here in Florida. And, given the diverse 
vessel traffic at the Port of Miami, and the significant 
pleasure boat presence in the region, this is a perfect place 
to frame a discussion about Maritime Domain Awareness, or what 
we call MDA, and Vessel Tracking.
    MDA is an effective understanding of anything associated 
with the Maritime Domain that could impact the security, the 
safety, the economy, or the environment of the United States. 
And achieving and maintaining full Maritime Domain Awareness at 
any port is a challenge, in particular here in Miami. And that 
is one of the reasons why, for a long time now, I have been 
wanting to come here and take a look at this port in 
particular. Especially because of the small pleasure craft that 
are here, and what it means to our country.
    Remember that this Subcommittee not only does maritime, it 
does all egress and ingress into this nation. And from that 
standpoint, the type of people who come through here, through 
Miami, through the coastal waters of Florida in particular are 
of a great concern for us. We need to understand how best it is 
that we protect our coastal--our shores from people and 
contraband coming in.
    And I say that because, while our focus, in a large 
respect, from this Subcommittee and, of course, the Congress 
and even America right now, is about people crossing our land 
borders. The fact of the matter is, we have a lot more maritime 
coastal borders than land borders to this United States. And we 
have not really focused on that aspect.
    And as we tighten up those land borders, people will find 
different ways, or find the weaker link, to get in to the 
United States. And this will be a big challenge, especially for 
this area, Florida, and for Miami in particular.
    I am interested in the collaboration between the Coast 
Guard and The Mariner Group to enhance situational awareness in 
the emergency response at Miami Sector Command Center.
    And another issue that I think is very important for 
maritime security and Maritime Domain Awareness is the vessel 
tracking systems. And I am concerned about whether the Coast 
Guard and the ports have sufficient and accessible vessel 
tracking capabilities. So I look forward to you, to our 
witnesses discussing some of these and some of the other issues 
related to the Maritime Domain Awareness.
    And now, the Chair would like to recognize the gentleman 
from Florida, Mr. Bilirakis----
    Mr. Bilirakis. Thank you, Madam Chair.
    Ms. Sanchez. --for an opening statement.
    Mr. Bilirakis. I appreciate it very much. I appreciate you 
holding this hearing here today, particularly having to travel 
all the way across the country to be here. You truly are a 
great Chairperson, and I really am honored to serve under you.
    I would also like to welcome you to the State of Florida. I 
look forward to discussing the Maritime Domain Awareness and 
Vessel Tracking by the United States Coast Guard.
    I would also like to thank our witnesses for being here 
today, and I look forward to your testimony.
    The Florida district I represent includes the portions of 
Clearwater, Tarpon Springs, Palm Harbor, and the Gulf Coast of 
Pasco County, including New Port Richey, and also Hillsborough 
County, where the Port of Tampa is located.
    The people in my district understand firsthand the 
important of maritime security. And I am very interested in the 
progress being made by the Coast Guard, specifically in 
tracking small boats, sharing intelligence, and establishing a 
common operating picture.
    To improve Maritime Domain Awareness, the Coast Guard must 
be able to effectively locate, identify, and track maritime 
targets of interest in U.S. waters and beyond.
    The Safe Port Act requires the Secretary of Homeland 
Security, requires him to develop and implement a long-range 
automated vessel tracking system. To coordinate the Coast 
Guard's vessel tracking program, the law authorized funding for 
the creation of an Inter-agency Command Centers at all major 
U.S. ports. The Vessel Tracking System would feed these command 
centers using a common operating picture to insure that inter-
agency assets receive proper notice and have adequate time to 
respond to inbound waterborne threats.
    During today's hearing, I want to get a better 
understanding of the Coast Guard's operational capabilities to 
track approaching vessels. I would also like to examine what 
the Coast Guard is doing to address the increasing small boat 
threat.
    It is critical that the Coast Guard be able to identify, 
track, and analyze daily unreported threats, such as small 
vessels smuggling terrorists, weapons, illegal narcotics, and 
illegal aliens.
    I would like to welcome all of our witnesses here today, 
especially Colonel Bill Janes, who can offer unique insight 
into the impact of narcotics smuggling into the State of 
Florida, and help us identify ways to improve drug interdiction 
capabilities and information sharing.
    I am especially interested in his testimony, and would like 
to express my appreciation for Bill's participation here today.
    Colonel Janes. Thank you, Congressman.
    Mr. Bilirakis. Integration and coordination across federal, 
state, and local operations strategies and tactics is critical 
to the Coast Guard's strategic mission.
    And I want to thank Madam Chair again for having this 
hearing. I look forward to the testimony, and I yield back the 
balance of my time.
    Ms. Sanchez. I thank the gentleman from Florida, and I 
would just like to put on the record that when I spoke to the 
gentleman about doing a port visit down here to Miami, he said 
that would be great, but Tampa would be better. So I just want 
to put that in the record, because I know that he has asked, 
and maybe--maybe when we get to--we will get to it, but I know 
that you are looking out for your constituents.
    Okay. So, normally, our witnesses would be in front of us, 
but we will have to sort of lean over and look at you. If I 
send in a bill for my neck, I will let you know. But it is 
great to have you up here on the dais with us.
    And let me welcome you and give a little background on each 
of you, and then we will listen to your testimony.
    Our first witness is Captain Karl Schultz. He is the 
Commander of Coast Guard Sector of Miami. And the Captain 
reports to Sector Miami from the Kennedy School of Government 
at Harvard University, where he completed a one-year research 
fellowship in National Security Studies. And from July, 2003 to 
July of 2005, Captain Schultz served as Commanding Officer 
aboard the United States Coast Guard Cutter Venturous, leading 
diverse counter-drug, alien migrant interdiction, search and 
rescue, and humanitarian operations in the maritime approaches 
to the southeastern United States and throughout the Caribbean 
Basin.
    Captain Schultz has served in numerous other afloat and 
ashore assignments since graduating from the U.S. Coast Guard 
Academy in 1983.
    Our second witness is Mr. Stephen D. Dryden, President and 
CEO of The Mariner Group, a software company focused on 
Homeland Security with particular emphasis in Maritime Domain 
Awareness.
    His current MDA efforts include working with the Department 
of Homeland Security and the United States Coast Guard's 
Research and Development Center on the United States Coast 
Guard Sector Command Centers of the future visualization and 
response applications for Enhanced Watch-Stander Situational 
Awareness Project. That is a long name there.
    And our third and final witness is Colonel, U.S. Army 
Retired, William Janes, Director, Florida Officer of Drug 
Control. And he served in the U.S. Army for 24 years, commanded 
at the Company, Battalion, and the Brigade levels.
    We welcome all of you.
    Oh, and after leaving the military, he was a counselor, a 
manager, and Executive Director for the Drug Abuse 
Comprehensive Coordinated Office in Tampa for ten years. And 
from 2002 to 2006, he served as the Director, National 
Terrorism Preparedness Institute at St. Petersburg College.
    Welcome to all three of the gentlemen.
    And without objection, the witnesses' full statements, 
which they turned in, will be inserted in the record. And I 
will now ask each of the witnesses to summarize his statement 
for five minutes, beginning with Captain Schultz.
     And let us know what you think we need to know about, and 
maybe if you can address some of the issues in our opening 
statements. For five minutes.

STATEMENT OF CAPTAIN KARL SCHULTZ, COMMANDER, U.S. COAST GUARD 
                          SECTOR MIAMI

    Captain Schultz. Good afternoon, Madam Chairman and 
distinguished members of the Committee, Congressman Bilirakis. 
It is a pleasure to be here today to discuss the role of Coast 
Guard Sector Miami in securing our maritime borders in South 
Florida, and to address your specific questions pertaining to 
vessel tracking and domain awareness.
    As Sector Commander and Captain of the Port of Miami, I 
have several statutory responsibilities. I serve as the 
region's Federal maritime Security Coordinator; the Search and 
Rescue Mission Coordinator; the Officer-in-Charge Marine 
Inspection; and the Federal On-Scene Coordinator.
    To provide some context on the scope of Sector Miami's 
maritime security workload, I note that the Sector is 
responsible for all Coast Guard missions spanning 165 miles of 
southeast Florida coastline. Within this region, there are five 
seaports, collectively handling more than 9,000 annual vessel 
arrivals. The region is home to two of three of the largest 
cruise ship ports in the world, with nearly 4 million 
passengers passing through each, Port Everglades and Port of 
Miami, which you toured earlier today.
    Additionally, more than 2 million shipping containers and 
20 percent of Florida's gasoline and petroleum products 
servicing 12 neighboring counties pass through these same 
ports.
    Within our area of responsibility, the Coast Guard 
regulates more than 260 Maritime Transportation Security Act 
facilities.
    Our maritime security mission requirements are quite 
complex, as we focus on securing our port and coastal waterways 
against potential terrorist activities, as well as persistent 
threats from illegal migrants, drugs and other commodities 
trafficked via maritime means.
    Miami is known as the Gateway to the Americas, and the 
proximity of Sector Miami's Area of Responsibility to 
international points or origin or trans-ship for illegal 
migrant and illicit narcotics smuggling, presents significant 
operational challenges. The maritime border is complex, and 
requires an integrated approach to security, commerce, tourism, 
and immigration. We are committed to striking an optimal 
balance between trade, travel, and security in all that we do.
    The Committee's invitation noted, as you mentioned, Madam 
Chairwoman, the specific interest in Maritime Domain Awareness 
and Vessel Tracking. And I think, because of its importance, I 
will restate exactly what Maritime Domain Awareness is. It is, 
in fact, as you stated, the effective understanding of anything 
associated with global maritime domain that could affect 
safety, security, the economy, or the environment, and it is 
essential to Sector Miami and our ability to accomplish our 
broad portfolio of missions.
    MDA supports all Coast Guard missions, and, more 
specifically, our tactical, operational, and strategic 
decision-making. MDA integrated global maritime intelligence 
with global maritime situational awareness, and requires 
collaboration across all layers of government, and with the 
private sector, and with international stakeholders.
    Miami, interestingly enough, is home of the Coast Guard's 
first Sector Command, which was established back in 2004. And 
our Sector Command Center serves as a site for two significant 
Maritime Domain Awareness-related pilot projects. These are 
conducted jointly with the Department of Homeland Security 
Science and Technology Directorate.
    The first, Project Hawkeye, is a limited sensor network 
that integrates radar, cameras, and automatic identification 
system, or AIS, data feeds to provide automated vessel tracking 
data, and port activity monitoring capability to our Command 
Center watch-standers.
    The second, the Visualization and Response Tools Project, 
which you also mentioned, is a proof-of-concept effort designed 
to help us understand how to visualize a tactical situation and 
the security posture of the seaport by correlating sensor and 
automated vessel tracking information with advanced 
notification of arrival information and other port activities 
and data sources.
    These projects serve as test beds for the Coast Guard's 
proposed acquisition project called Command 21, and give the 
Sector important perspective and visibility on the wide array 
of threats to the maritime domain here in South Florida.
    There is still a long way to go in managing all the 
information required to support our daily operations and our 
daily decision-making. Tracking large, ocean-going vessels 
through programs like the Nationwide Automatic Identification 
System, Advanced Notice of Arrival process, and the forthcoming 
International Maritime Organizations Long Range Identification 
and Tracking Initiative, which you mentioned, Congressman 
Bilirakis, is just the start.
    The small boat threat, for example, continues to present 
technological and policy challenges, and remains a primary 
maritime security concern, particularly in our area, where we 
have over 100,000 registered recreational vessels just in Palm 
Beach, Broward, and Dade Counties alone.
    Collaboration across all layers of government, federal, 
state, and local, as well as with the private sector and 
international stakeholders is essential to achieve meaningful 
MDA and, in turn, address the myriad of threats in our domain. 
We work hard in southeast Florida to ensure interagency 
collaboration, and insure that collaboration informs and 
improves our layered approach to maritime security.
    Coordinating bodies such as our Area Maritime Security 
Committee and its active subcommittees, as well as the State of 
Florida's Regional Domestic Security Task Force, which here 
locally brings 100-plus first responder agencies together in a 
coordinating framework, are pivotal to our collaboration and 
operational coordination.
    Key partnerships with federal agencies such as Customs and 
Border Protection, Immigration and Customs Enforcement, the 
Federal Bureau of Investigation and their Joint Terrorism Task 
Force, as well as state and local agencies, private maritime 
organizations such as CLIA, local shippers, the ports, terminal 
operators, industry groups, these are all critical to the 
success of our cooperation and that integration in the region.
    The Sector Miami team works diligently to insure our 
maritime borders and seaports are as secure as possible given 
our available capabilities and resources. We place continuous 
emphasis on cultivating and nurturing partnerships, on applying 
new technologies, and on delivering operational excellence in 
all that we do.
    We are proud to serve the nation in this critical locale, 
and are grateful for your interest in our operations.
    Thank you for the opportunity to testify today. I have 
submitted my written statement for the record, and I look 
forward to your questions.
    [The information follows:]

             Prepared Statement of Captain Karl L. Schultz

    Good afternoon Madam Chairman and distinguished members of the 
Committee. It is a pleasure to be here today to discuss the role of 
Coast Guard Sector Miami in securing our maritime borders in South 
Florida, and to address your specific interests in maritime domain 
awareness and vessel tracking. I am grateful for your interest in our 
unique operating environment and pleased to welcome you here.
    As Sector Commander and Captain of the Port of Miami, I have 
several statutory responsibilities. I serve as the region's Federal 
Maritime Security Coordinator; the Search and Rescue (SAR) Mission 
Coordinator; the Officer-in-Charge Marine Inspection; and the Federal 
On-Scene Coordinator. The Sector focuses on two major operational 
processes--PREVENTION and RESPONSE--in support of our service's five 
fundamental roles: Maritime Safety, Maritime Security, Maritime 
Mobility, the Protection of Natural Resources, and National Defense.
    The seaports in Sector Miami's Captain of the Port zone are located 
on shared-use waterways in densely populated areas. To provide some 
context on the scope of Sector Miami's maritime security workload, I 
note that the Sector is responsible for all Coast Guard missions 
spanning 165 miles of southeast Florida coastline and encompassing 
numerous counties. Within this region there are five ports, 
collectively handling more than 9,000 annual vessel arrivals. The 
region is home to two of the three largest cruise ship ports in the 
world, with nearly 4 million passengers moving through both Port 
Everglades and the Port of Miami annually. Additionally, more than 2 
million shipping containers (TEUs) and 20% of Florida's gasoline and 
petroleum products servicing 12 neighboring counties pass through these 
ports. The region is also home to 2 nuclear power plants, and the local 
commercial fleet includes 370 small passenger vessels. There are also 
170,000 registered recreational boats in Palm Beach, Miami Dade and 
Broward counties alone. Within our Area of Responsibility, the Coast 
Guard regulates more than 260 Maritime Transportation Security Act 
facilities.
    Our maritime security mission requirements, while only a subset of 
our broader Coast Guard responsibilities, are quite complex as we focus 
on securing our port and coastal waterways against potential terrorist 
activities as well as potentially persistent threats from illegal 
migrants, drugs and other commodities and implements trafficked via 
maritime means. Miami is known as the ``Gateway to the Americas,'' and 
the proximity of Sector Miami's Area of Responsibility to international 
origination or trans-shipment points for illegal migrant and illicit 
narcotic smuggling, presents significant operational challenges. To be 
certain, the maritime border is a complex national border requiring and 
integrated approach to security, commerce, tourism and immigration. We 
are committed to striking an optimal balance among trade, travel and 
security in all that we do.
    The Committee's invitation noted a specific interest in the areas 
of Maritime Domain Awareness (MDA) and Vessel Tracking. These issues 
are relevant to Sector Miami and I am pleased to speak to them. MDA, or 
the effective understanding of anything associated with the global 
maritime domain that could affect safety, security, the economy or the 
environment, is essential to the Sector's ability to accomplish its 
broad portfolio of missions, including seaport and border security, 
maritime safety, search and rescue, marine environmental protection, 
and the facilitation of maritime commerce. Indeed, MDA supports all 
Coast Guard mission areas, and more specifically, our tactical, 
operational and strategic decision-making. MDA integrates global 
maritime intelligence with global maritime situational awareness and 
requires collaboration across all layers of government (federal/state/
local), the private sector, and with international stakeholders.
    Miami is home to the Coast Guard's first Sector Command, 
established in 2004. The Sector Command Center (SCC) coordinates Coast 
Guard resources applied to the full spectrum of Coast Guard missions 
found in Southeast Florida and serves as the hub, or central nervous 
system, of the command. Sector Miami's SCC is also the site for two 
significant MDA-related pilot projects conducted jointly with the 
Department of Homeland Security Science and Technology Directorate. The 
first, ``Project Hawkeye,'' is a limited sensor network that integrates 
radar, cameras and Automatic Identification System data (AIS) to 
provide automated vessel tracking data and port activity monitoring 
capability to the SCC. The second, the Visualization and Response Tools 
project, is a proof-of-concept effort designed to help us understand 
how to visualize the tactical situation and security posture of the 
seaport by correlating sensor and automated vessel tracking information 
with advanced notification of arrival information and other port 
activity. These projects serve as test beds for the Coast Guard's 
proposed acquisition project called ``Command 21,'' and give the Sector 
important perspective and visibility on a wide array of threats to the 
maritime domain. The Command 21 project is conceptually designed to 
provide port-level MDA and to highlight information gaps to provide 
Sector Commanders with the ability to synthesize MDA information in the 
SCC and to further share that information with federal, state and local 
partners.
    There is still a long way to go in managing all the information 
required to support daily operations and decision-making. Tracking 
large, ocean-going vessels through programs like the National Automatic 
Identification System, Advanced Notice of Arrival process and the 
forthcoming International Maritime Organization's Long Range 
Identification and Tracking (LRIT) is just the start. The small boat 
threat, for example, continues to present technology and policy 
challenges and remains a primary maritime security concern, 
particularly in the Sector Miami area of operations where, as I 
mentioned earlier, we have over 170,000 registered recreational boats. 
Within the Department of Homeland Security, we are working closely with 
CBP to expand our efforts to secure the small maritime craft 
environment.
    Collaboration across all layers of government (federal, state and 
local), as well as with the private sector and international 
stakeholders is essential to achieving meaningful MDA and in turn 
addressing the myriad of threats in the maritime domain. We work hard 
in Southeast Florida to ensure interagency collaboration informs and 
improves our layered approach to maritime security. Coordinating bodies 
such as our Area Maritime Security Committee (AMSC) and its active 
subcommittees, as well as the State of Florida's Southeast Regional 
Domestic Security Task Force (RDSTF-SE), which brings more than 100 
first responder agencies together in a coordinating framework, are 
pivotal to our collaboration and operational coordination. Key 
partnerships with federal agencies such as Customs and Border 
Protection, Immigration and Customs Enforcement, the Federal Bureau of 
Investigation and their Joint Terrorism Task Force; as well as state 
and local agencies and private maritime organizations including the 
Cruise Line International Association (CLIA), local shippers, terminal 
operators and other industry groups are critical to the success of our 
cooperation and integration in the region.
    In my estimation, Sector Miami's focus on a risk-based approach to 
layered maritime security is serving Southeast Florida well. The Sector 
Miami team of active duty, reserve, civilian employees and Coast Guard 
Auxiliarists (our volunteers) works diligently to ensure our maritime 
border and seaports are as secure as possible given available 
capabilities and resources. At Sector Miami, we place continuous 
emphasis on cultivating and nurturing partnerships, on applying new 
technologies and on delivering operational excellence in all that we 
do. We are proud to serve the nation in this critical locale and again 
grateful for your interest in our operations.
    Thank you for the opportunity to testify today. I look forward to 
your questions.

    Ms. Sanchez. Thank you. I thank the gentleman.
    And I now recognize Mr. Dryden to summarize his statement 
for five minutes.

  STATEMENT OF STEPHEN DRYDEN, PRESIDENT AND CEO, THE MARINER 
                             GROUP

    Mr. Dryden. Thank you. Good afternoon, Madam Chairwoman, 
Congressman Bilirakis. I am Steve Dryden, CEO of The Mariner 
Group. It is an honor to appear here today and talk about the 
MDA and Vessel Tracking.
    My company, The Mariner Group, has been working with the 
Coast Guard over the last three years to significantly improve 
MDA and situational response. My goal is to basically review 
the overall project mission, take you through the challenges we 
have encountered, and then, at the end of this, is to also urge 
full support of the Safe Port Act and the funding that has 
already been put in for the President to sign.
    As you know, the Safe Port Act directs the Coast Guard to 
establish Interagency Operations Centers for enhancing port 
security at locations around the nation. The Mariner Group is 
working with the Coast Guard through the Visualization Tools 
for Situational Awareness and Emergency Response, which is a 
mouthful, I agree.
    As part of the project, Mariner software application, 
Command Bridge, has been employed as the primary underlying 
technology to increase domain awareness in Sector Command 
Center Miami.
    I would like to take a few minutes to share with you what I 
believe is an important aspect of the Coast Guard's efforts to 
insure safety and security.
    Of the many challenges in achieving MDA, none are more 
important than gaining actionable situation awareness. In a 
Coast Guard Command Center, or any complex border 
infrastructure or transportation environment, watch-standers 
must maintain an understanding of what is going on at all 
times, while simultaneously working to predict and prevent 
ever-changing threats.
    The work of this Committee and the government as a whole 
has allowed technology to be applied to many critical issues in 
maritime and other security areas. And more and more data is 
being generated to help users make decisions. But an unintended 
consequence of this is massive amounts of data, and the user 
becomes overloaded with too much information. So it is harder 
to focus on particular, important information.
    Simply put, it is harder to find the needle in the haystack 
when the haystack keeps getting bigger and bigger.
    The goal of the Viz Tools Projects is to inform decision-
makers and then enable them to take action to prevent incidents 
and/or appropriately coordinate incident response. The program 
places strong emphasis on providing operational end-users with 
the technology, the capabilities to detect and prevent 
terrorist attack, counteract illegal activities, and to help 
manage those response-related actions.
    The project was funded by DHS S&T in collaboration with the 
Coast Guard R&D Center. It is currently an operational 
prototype in Sector Miami, here.
    Viz Tools uses advanced methods to collect and fuse data, 
better analyze that data to create knowledge, and then create 
more effective ways to visualize and act upon the knowledge, 
then disseminate that information internally to the Coast Guard 
and well as externally to port partners.
    Overall, the project objectives include develop and 
maintain an accurate situational picture, identify threats 
rapidly without the need for extensive manpower, and then plan 
and manage those stages of response.
    Prior to Viz Tools, watch-standers had to manually achieve 
situational awareness by monitoring information from a lot of 
sources, such as radar, the harbor pilots, internal Coast Guard 
systems, weather, and there was just a litany of systems that 
had to be identified and looked at all the time.
    Getting true situational awareness requires advanced 
technology that can focus on meaningful, relevant information. 
Just displaying large amounts of data not only lacks benefit, 
but also can contribute to an overload, negatively affecting 
the situation.
    The Viz Tools Project not only fuses information from many 
sources, it also analyzes the combined information for 
anomalies, and then presents meaningful, actionable knowledge 
without the clutter.
    These capabilities keep the watch-stander focused on what 
is important, while delivering the right information to the 
right person at the right time.
    We are making great stride, but critical gaps still need to 
be addressed. I would submit that certain areas of developing 
regional security should be properly incorporated into these 
Interagency Command Centers.
    Number one, the integration of cargo and vessel 
information. Two, better sensor technology installed to track 
small boats and non-cooperative vessels that may attempt to 
spoof or turn off AIS transponders.
    The current state of technology in ports today is really--
really falls short in their ability to do this.
    Emerging projects such as DHS has with the Coast Guard, one 
is called the Automated Scene Understanding Project, which is 
showing a lot of potential benefit, and needs to be examined 
more.
    We need to foster a better sense of coordination with local 
law enforcement and emergency responders to coordinate security 
in instant response.
    We need to be able to conduct longer range vessel tracking 
of transits that are out there, not necessarily headed to and 
from the port, but are actually out there in the vicinity.
    And lastly, we need to integrate information in response-
related activities related to high-interest, critical 
facilities that are not regulated by the Coast Guard, but they 
may be on, adjacent to, over or under U.S. navigable waters.
    In conclusion, I would recommend that you and your 
Committee provide full funding for the Safe Port Act 
requirements. The President budget recommends only minimal 
funding for the Command 21 Program. Fortunately, with your 
leadership, Madam Chairman and Congressman Bilirakis, the House 
has chosen to include $40,000,000 for the Command 21 Program, 
and the Senate has proposed 60,000,000 in 2008 funding.
    It will be critical to ensure that we do not fall behind 
another year in this program. In my view, facilitating regional 
maritime security coordination and response may be the most 
important and the most difficult challenge we face in the 
larger area of port security.
    Thank you very much for the invitation to speak before you 
today, and giving me the opportunity to talk before you.
    [The information follows:]

                Prepared Statement of Stephen D. Dryden

    Good afternoon Madame Chairwoman and distinguished members of the 
Subcommittee. I am Steve Dryden, Chief Executive Officer of The Mariner 
Group. It is an honor to appear before you today to discuss Maritime 
Domain Awareness (MDA) and Vessel Tracking.
    My company, The Mariner Group, has been working with the US Coast 
Guard over the past three years to significantly improve MDA and 
response throughout the nation. My goals today are to inform you of the 
overall project mission, the challenges encountered in gaining true 
MDA, and lastly, to urge support for full funding of the Safe Port Act 
of 2006.
    As you know, the Safe Port Act of 2006 directs the Coast Guard to 
establish interagency operations centers for enhancing port security at 
locations around the nation. The Mariner Group is working with the 
Coast Guard through their Visualization Tools for Situational Awareness 
and Emergency Response, or ``Viz Tools'', for Sector Command Centers to 
help in this effort. As part of this project, Mariner's software 
application, CommandBridge, has been employed as the primary underlying 
technology to increase Maritime Domain Awareness at the Sector Command 
Center--Miami. I would like to take a few minutes to share with you 
what I believe is an important aspect of the Coast Guard's efforts to 
ensure the safety and security of U.S. waters.
    Of the many challenges in achieving MDA, none are more important 
than gaining Actionable Situation Awareness. ``Situation awareness is 
the perception of elements in the environment within a volume of time 
and space, the comprehension of their meaning, and the projection of 
their status in the near future.'' \1\ In a Coast Guard command center, 
or any highly complex border, infrastructure, or transportation 
environment, watch standers must maintain an understanding of what is 
going on at all times while simultaneously working to predict and 
prevent ever changing threats.\2\
---------------------------------------------------------------------------
    \1\ Designing for Situation Awareness: An Approach to User-Centered 
Design by Mica R. Endsley,, Betty Bolte, and Debra G. Jones.
    \2\ See Attachment ``The Mariner Group''.
---------------------------------------------------------------------------
    The work of this committee, and the government as a whole, has 
allowed technology to be applied to many critical issues in maritime or 
other homeland security areas, and more and more data is being 
generated to help users make decisions. As examples, technologies 
including RADAR, cameras, Automatic Identification Systems, and 
perimeter detection systems have been implemented throughout our ports. 
But an unintended consequence of massive amounts of data is that users 
are overloaded with that data, making it harder to focus on the most 
important information. Simply put, it's harder to find the needle-in-
the-haystack when the haystack keeps getting larger.
    The goal of the Viz Tools project is to inform decision makers and 
enable them to take action to prevent incidents and/or appropriately 
coordinate incident response. The program places strong emphasis on 
providing operational end-users with the technology and capabilities to 
detect and prevent terrorist attacks, counteract illegal activities, 
and to help manage response related actions.
    The project was funded by the Department of Homeland Security 
Science & Technology Directorate (DHS S&T) in collaboration with the 
Coast Guard R&D Center and Pacific Northwest National Labs (PNNL). The 
system is currently operational as a prototype in District Seven at the 
Coast Guard's Sector Command Center in Miami. Viz Tools uses advanced 
methods to collect and fuse data, better analyze the data to create 
knowledge, create more effective ways to visualize and act upon the 
knowledge, and disseminates information internally to the Coast Guard 
and their appropriate partners.
    Viz Tools' overall project objectives are to:
        <bullet> Develop and maintain an accurate situational picture;
        <bullet> Assimilate relevant sensor data and couple it with 
        amplifying information;
        <bullet> Identify threats rapidly without the need for 
        extensive manpower;
        <bullet> Comprehend the nature and gravity of the emerging 
        threat;
        <bullet> Maximize Blue Force Assets, operational capacity, and 
        readiness to offset the threat; and
        <bullet> Plan and manage the stages of emergency response.
    Prior to Viz Tools, watch standers had to manually achieve 
situation awareness by monitoring information from numerous sources 
such as RADAR screens, harbor pilot websites, messaging, commercial 
information sources, weather systems, internal Coast Guard systems, 
etc.
    Gaining true actionable situation awareness requires advanced 
technology that can focus the user on meaningful, relevant information. 
Just displaying large amounts of data not only lacks benefits but can 
also contribute to sensory overload negatively affecting the situation. 
Viz Tools not only fuses information from many diverse sources, it also 
analyzes the combined information for anomalies and then presents 
meaningful, actionable knowledge without the ancillary clutter. These 
capabilities keep the watch stander focused on what's important while 
delivering the right information to the right person at the right time.
    Viz Tools enables the Coast Guard, other law enforcement agencies, 
and Port Partners the ability to understand their current situation by 
providing them the most relevant, actionable information and 
implementing the most appropriate security protocols. Currently 
envisioned, Viz Tools will promote the ability to leverage current 
technology programs and allow easy adaption of additional technologies 
as port security needs evolve.
    Let me give you an illustration: If a container ship is heading for 
the Port of Miami, Viz Tools tracks its progress. Before it has entered 
the area, Viz Tools analyzes all relevant information, assessing 
anomalies, safety, and terrorist potential. Information from the Coast 
Guard, port authorities, harbor pilots, Lloyd's Register, and other 
vital sources pour in, creating a federated view. In addition, we will 
be working to incorporate information on cargo sensitivity with 
relevant information collected about the vessel.
    Correlating and verifying all information, Viz Tools can apply 
anomaly detection to monitor information such as changes in ownership, 
manifest discrepancies, inconsistent arrival information, and other 
intelligence as it becomes available. These anomalies automatically 
display on the user's screen as an alert that necessitates immediate 
action. In addition, Viz Tools currently allows the Coast Guard to 
maintain operational control such as alerting the watch stander that a 
vessel operating under restriction has begun to move. Based upon the 
situation, the watch stander can use Viz Tools to automatically contact 
the appropriate resource to instigate an intervention, detaining the 
ship until it achieves an all-clear status. Over time, Viz Tools will 
evolve to incorporate changing security scenarios by assembling a 
growing portfolio of alert circumstances and therefore continuously 
increasing port security. While we are making great strides, critical 
gaps still need to be addressed. I would submit that certain areas of 
developing regional maritime security should properly be incorporated 
into the interagency command centers, including:
        1. The integration of cargo and vessel information into Viz 
        Tools.
        2. Better sensor technology installed to track small boats and 
        non-cooperative vessels that may attempt to spoof or turn off 
        required AIS transponders. The current state of technology in 
        today's ports falls short in their ability to track non-
        cooperative vessels and small boats. For example, a vessel may 
        be deemed non-cooperative if its Automatic Identification 
        System (AIS) tracking isn't turned on. Small boats that don't 
        have AIS tracking technology are also a potential threat. 
        Emerging projects such as DHS S&T / USCG R&D Center's Automated 
        Scene Understanding project offers the potential to mitigate 
        this shortfall.
        3. Foster a better sense of coordination with local law 
        enforcement and emergency responders to coordinate security and 
        incident response.
        4. Ability to conduct longer range vessel tracking of transits.
        5. Integrate information and response related activities 
        related to high-interest, critical facilities that are not 
        regulated by the Coast Guard that are on, adjacent to, over, or 
        under, U.S. navigable waters.
    In conclusion, I would also recommend that you and your committee 
provide full funding for the Safe Port Act requirements. The 
President's Budget recommends only minimal funding for the Command/21 
program. Fortunately, with your leadership Madame Chairman and 
Congressman Bilirakis, the House has chosen to include $40 million 
dollars for the Command/21 program, and the Senate has proposed $60 
million in 2008 funding. It will be critical to ensure that we do not 
fall behind another year on this program. In my view, facilitating 
regional maritime security coordination and response may be the most 
important and most difficult challenge that we face in the larger area 
of port security.
    Thank you very much for the invitation to speak before you today 
and for giving me the opportunity to talk to you about Maritime Domain 
Awareness and Vessel Tracking I'm proud to be associated with this 
project and am happy to answer any questions you may have.

                               Attachment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Ms. Sanchez. Thank you, Mr. Dryden. And I thank you for 
your testimony.
    And I now recognize Colonel, is it Janes or Jannis?
    Colonel Janes. Janes.
    Ms. Sanchez. Janes. Okay. Colonel Janes, to summarize your 
statement for five minutes or less, please.

   STATEMENT OF COLONEL WILLIAM G. JANES, (U.S. ARMY, RET.), 
  DIRECTOR, FLORIDA OFFICE OF DRUG CONTROL STATEMENT OF KARL 
                            SCHULTZ

    Colonel Janes. Madam Chair, thank you for your leadership; 
Congressman Bilirakis, for your outstanding leadership in 
Florida and terrific support of my office; fellow panelists. I 
am delighted to testify.
    On behalf of Governor Charlie Crist and the state, port, 
and community leaders involved in the combined efforts to 
secure our ports, Florida, and our nation from a transportation 
security incident, drug trafficking, I thank Congress, and 
particularly this Subcommittee, for the opportunity to talk 
about our ports, particularly Florida ports, the global supply 
chain, and how to protect the citizens of Florida.
    In terms of geography demography, Florida has many features 
which make it exceptionally attractive for drug trafficking 
organizations and, potentially, terrorists. These include an 
extremely diverse population with strong representation from 
the Caribbean Basin, Central and South America, and Mexico. 
Florida has approximately 1350 miles of largely unprotected 
continental coastline, and the Florida Keys archipelago, that 
lies astride some of the major drug trafficking routes into the 
United States.
    During the last decade, Florida has addressed seriously the 
daunting task of seaport security. We began initially focused 
on crime, cargo theft, drug trafficking, but expanded to 
terrorism after the horrific events of 9/11.
    Our emergency responders in ports are superbly trained and 
prepared for an incident, but, most importantly, to prevent it. 
We have implemented Regional Domestic Security Task Forces 
across our state to respond to an all-hazards threat.
    Most states have two to three ports to secure. Florida has 
14 deep, public deepwater seaports. Our coastlines are dotted 
with hundreds of smaller, privately owned commercial marinas 
and ports engaged in intra--as well as interstate and 
international business. These present horrific challenges to 
secure from drug trafficking.
    Ensuring the continued growth and prosperity of our ports, 
even as we better secure them from a transportation security 
incident, drug trafficking, and other illegal activity is a 
primary concern for our governor, congressional delegation, 
legislators, and citizens.
    The challenge of securing Florida ports, Madam Chair, you 
noted with the differences in port governance, organizational 
structure, geography, law enforcement support, labor issues, 
fundamental funding mechanisms, and commercial operations.
    Drug trafficking is now recognized as a nexus for 
terrorism. Drug trafficking is facilitated when cargo volume 
exceeds monitoring capabilities. Vessels remain for lengthy 
stays; access control is superficial; physical security is 
limited; security planning is incomplete; law enforcement 
presence is inadequate; and information security is poor.
    Our security standards address these as best we can at this 
point.
    Historically, cocaine trafficking has been the major 
illegal maritime activity. Certainly, heroin moves in large 
quantities through Florida. Columbians continue to dominate 
drug and money laundering operations. However, Jamaican, 
Dominican, Mexican, Bahamian, and Cuban organizations impact 
drug trafficking in Florida.
    In 2005, Florida had 1,010,370 registered vessels, with 
27,204 commercial and 973,859 pleasure boats. Monitoring these 
would not be unlike trying to secure a vehicle-borne improvised 
explosive device in one of our major cities. These vast numbers 
of watercraft, combined with superb navigational technology, 
greatly assist small vessel drug smugglers moving into Florida.
    Specifically, you asked me to address vulnerabilities. I 
believe the drug trafficking vulnerabilities include a regional 
threat versus a state response. Drug trafficking is 
international, yet our response is often local, to a sheriff, 
local law enforcement. We need a regional response that 
includes adjacent states, waterways, air, land, and sea 
approaches. There are inadequate resources at the federal, 
state, and local level to address the volume of drug 
trafficking that occurs in our state and across our nation.
    As you indicated, the shift of emphasis to the southwest 
border will push resources to this corridor again. Arguably, 
that happened as we moved them away from this corridor ten to 
fifteen years ago, but a lot of those resources have been 
diverted to the war in Iraq.
    Internal conspiracies present a threat, where a vessel 
crew, passenger, stevedores, checkers, anyone, can be involved 
in the lucrative business of drug trafficking.
    There is a tension between commerce and security. Security 
costs these ports great amounts of dollars, yet it is very 
important. Security can slow commerce. These tensions have to 
be addressed.
    Poor information sharing. Prior to 9/11, the intelligence 
sharing was well documented. Law enforcement sharing of 
information today is impeded with privacy concerns. Though very 
important, have to be addressed as law enforcement background 
information and other intelligence is shared.
    There is imprecise tracking of cargo, which presents 
problems. Federal and state planning must be enhanced into 
local planning, regional planning that is unified.
    The law enforcement response must be preventive, proactive. 
Historically, our law enforcement have responded to criminal 
activity, investigated, traced the source all the way back, in 
some cases, to a drug trafficking organization. We must become 
proactive.
    There is a nexus between drug traffic and transportation 
security incidents, but I don't believe it is operationalized 
today.
    We should be sharing lessons learned, best practices. 
Counter-drug operations are difficult to resource. The current 
Transportation Worker Identification Credential, TWIC, has not 
been aligned with the Florida Credential adequately; we are not 
sharing information.
    How to close these vulnerabilities. Fix responsibility for 
regional, state planning, that includes air, land, sea, and 
geographic areas I mentioned. Develop regional counter-
terrorism and counter-drug strategies. Produce a regional drug 
threat analysis. State-wide drug threat analyses do not exist 
today. We believe we will have the first truly state-wide drug 
assessment next year.
    We must share information from law enforcement; involve our 
port directors and port security staff in intelligence 
information sharing on a daily basis; include them in 
operations; prioritize Operation Bahamas, Turks and Caicos, 
which has been an interdiction resource in past years, that 
reduction in resources has affected that.
    Finally, include a national plan with regional emphasis 
and, for me, of course, a state-wide focus.
    Florida is recognized as a national leader in port security 
among our great partners throughout the country. We have 
implemented one of our nation's first drug control strategies.
    Your hearing today enables us to unify these systems. I am 
honored to have the opportunity to present this testimony, 
which is expanded in my written comments.
    Thank you, Madam Chair.
    [The information follows:]

                 Prepared Statement of William H. Janes

    Good afternoon, it is my distinct honor to testify before the 
esteemed members of the Committee on Homeland Security, Subcommittee on 
Border, Maritime, and Global Counterterrorism. On behalf of Florida 
Governor Charlie Crist and state and community leaders involved in our 
combined efforts to secure Florida and our Nation from a transportation 
security incident and drug trafficking, I thank Congress and, in 
particular, this committee for the high level of interest in protecting 
our nation's ports, the global supply chain, and the citizens of 
Florida. I appreciate the opportunity to meet with you today.
    Specifically, today I will address, per Congressman Gus Bilirakis' 
request, the diversity of Florida's ports, my assessment of vessel 
tracking initiatives, critical maritime vulnerabilities as they impact 
Florida, observations regarding narcotics smuggling, and challenges we 
currently face.

Background
    In terms of geography and demography, Florida has many features 
which make it exceptionally attractive to drug trafficking 
organizations and, potentially, terrorists. These include an extremely 
diverse population with strong representation from the Caribbean Basin, 
Central and South America, and Mexico. Additionally, Florida has 
approximately 1,350 miles of largely unprotected continental coastline 
and the Florida Keys archipelago (that lie astride some of the major 
drug-trafficking routes into the United States), geographical proximity 
to ``source'' countries, and strong cultural ties to countries 
throughout the region. Florida's international ports of entry must, 
therefore, be considered critical in the national as well as regional 
counter-terrorism/counter-drug efforts. Importantly, our counter-
terrorism and counter-drug efforts must be considered concurrently in 
any threat assessment or response planning.
    During the last decade, Florida has addressed seriously the 
daunting task of seaport security. Florida's ports have long been 
regarded as among the most secure in the nation. Our state and local 
partnerships are strong; our security standards are well understood; 
and the implementation of security planning is effective. Our emergency 
responders are superbly trained having faced the horrific hurricanes in 
recent years. We are ahead of the nation in developing a biometric port 
access credential, which if supported by the Transportation Security 
Administration (TSA) can be implemented immediately. We have 
implemented an aggressive all hazards, counter-terrorism response 
concept with seven (7) Regional Domestic Security Task Forces (RDSTF) 
encompassing all of our state including our seaports and a statewide 
Domestic Security Oversight Board. Since September 11, 2001, we have 
expanded our prevention, preparedness, response, and crisis management 
capabilities to address terrorism in addition to our initial focus on 
crime, cargo theft, and drug trafficking.
    Most states have two or three ports to secure; Florida has fourteen 
(14) public deepwater seaports. In addition, our coastline is dotted 
with hundreds of smaller, privately owned commercial marinas and ports 
engaged in intra-state as well as inter-state and international 
business. Florida is home to four of the busiest container ports in the 
nation, and the top three cruise ports in the world. These ports 
operate within an exceptionally complex inter-modal transport system 
that must be carefully considered in counterterrorism and counter-drug 
operations and planning. Florida enjoys a vibrant and growing economic 
benefit from these points of entry. Ensuring the continued growth and 
prosperity of our ports, even as we better secure them from a 
transportation security incident, drug trafficking, and other illegal 
activity is of primary concern to Governor Crist, our Congressional 
Delegation, our legislators, and the citizens of Florida.
    The challenge to the security of Florida's seaports is exacerbated 
by the noteworthy differences from port to port. Each is quite 
different from the others in terms of parameters of the establishing 
charter of the port, governance, organizational structure, geography, 
law enforcement support, labor base, funding mechanisms, and commercial 
operations. Some provide a full range of cargo and cruise operations. 
Others offer only specific types of cargo and/or cruise operations. 
Such diversity may well be regarded as a key contributor to the state's 
overall economic posture, but it also significantly complicates efforts 
to standardize security preparedness.
    Florida is well served by the Florida Ports Council, the Florida 
Seaport Transportation Economic Development (FSTED) Council and the top 
management in each of Floridas deepwater ports. They comprise a 
community of highly skilled, dedicated, and professional public 
servants, who are integral in maintaining the balance between commerce 
and security on our ports. They provide strategic input for the 
planning, security, and operations of our ports. I am also privileged 
to chair the legislatively-mandated Seaport Security Standards Council, 
which is charged to review the existing minimum seaport security 
standards. This council has also provided an effective forum for 
discussion of concerns and issues for Florida ports and tenant 
agencies.

Illegal Drug Trafficking (Includes Drug Smuggling)
    As mentioned earlier, the nexus between terrorism and drug 
trafficking is now well established. However, the nature of the drug 
trafficking threat is substantially different from a terrorist act. 
Rather than a major, horrific event or events that typify a terrorist 
act, drug trafficking is ongoing. Drug-trafficking is facilitated when 
cargo volume exceeds monitoring capabilities, vessels remain for 
lengthy stays, access control is superficial, physical security is 
limited, security planning is incomplete, law enforcement presence is 
inadequate, or information security is poor. Accordingly, Florida's 
minimum security standards emphasize strong access control, law 
enforcement presence, effective operational guidelines and plans, cargo 
tracking by tenant partners, and other countermeasures. Despite Florida 
leading the nation in port security, we remain concerned with our 
ability to prevent large quantities of drugs from entering our state.
    Historically, cocaine trafficking has been the major illegal 
maritime activity. The fact that our cocaine drug overdose rate has 
climbed steadily in recent years provide indisputable evidence that 
cocaine is still available in abundant quantities. Drug trafficking 
organizations impacting Florida are largely international. Their 
distribution schemes include multi-state transportation and 
distribution of illicit drugs at the wholesale level. They supply local 
drug market areas with cocaine, heroin, marijuana, MDMA (Ecstasy), 
diverted pharmaceuticals and methamphetamine. These illicit drugs vary 
in demand across Florida as evidenced by higher demand for 
methamphetamine in rural areas of the state. Colombians continue to 
dominate drug and money laundering operations; however, Jamaican, 
Dominican, Mexican, Bahamian, and Cuban organizations impact drug 
trafficking in Florida. Interrelated to the drug trafficking problems 
are violence, human trafficking, and the proliferation of gangs 
profiting from drug sales. Venezuelan influence and involvement in drug 
trafficking and money laundering continue to increase. Drug threat 
assessments at the federal, state, and local levels consistently 
mention the maritime accessibility to Florida. Our ports, coastline, 
and waterways provide major access points for drug traffickers.
    In 2005, Florida had 1,010,370 registered vessels with 27,204 
commercial and 973,859 pleasure boats. These figures do not include out 
of state commercial, pleasure fishing, and other vehicles that utilize 
Florida's waterways, often traveling to Caribbean ports. These vast 
numbers of watercraft, combined with superb navigation technology 
widely available today, greatly assists small vessel drug smugglers 
moving around the immense Florida and Caribbean littorals with relative 
ease and great precision. While the cooperation among federal, state, 
and local law enforcement is excellent, the sheer volume of vessels and 
smaller watercraft present a major concern.
    Drug seizures and subsequent investigations document that 
frequently, crewmembers aboard freighters and passengers or crewmembers 
on cruise ships routinely smuggle drugs into Florida through a ``body 
carry'' after the drugs have been concealed aboard the vessel. Cruise 
ships leaving and entering Florida ports routinely call on drug source 
and transit countries throughout the Caribbean and Central America. The 
volume of cargo being moved through our ports is evidenced clearly in 
Jacksonville. The Port of Jacksonville (JAXPORT) is one of the largest 
ports in the nation. It ranks among the top containers ports and one of 
the busiest vehicle handling ports in the United States. In 2005, 
JAXPORT's three public marine terminals handled a total of 8.4 million 
tons of cargo, a new tonnage record for the port. JAXPORT now ranks 
only behind Tampa and Port Everglades in total tonnage. Additionally, 
nearly 20 privately-owned Marine terminals also operate in 
Jacksonville's harbor without support or management from JAXPORT. These 
independent port operations are not under the Florida minimum standards 
for seaports and are regulated by the US Coast Guard.
    Florida has three High Intensity Drug Trafficking Areas (HIDTA's) 
funded by Office of National Drug Control Policy (ONDCP). The three 
HIDTA's develop annual drug threat assessments and coordinate federal, 
state, and local law enforcement operations in 22 of Florida's 67 
counties. Drug threat assessments for the remaining 45 counties are 
being developed by the Florida Department of Law Enforcement and 
Florida National Guard. Florida also has a significant presence from 
the Drug Enforcement Administration (DEA), Immigration and Customs 
Enforcement (ICE), and Customs and Border Protection (CBP). We also are 
assisted by the Joint Interagency Task Force South (JIATF-South), which 
has responsibility for the sea approaches to Florida. Collectively, 
these agencies routinely document and interdict significant quantities 
of drugs moving in our region.
    Vessel tracking poses complex issues involving a myriad of federal 
and state actors, to include U.S. Coast Guard, Customs and Border 
Patrol (``CBP'') and, for smaller vessels, the Florida Fish & Wildlife 
Conservation. CBP requires that 24 hours before a U.S. bound container 
is loaded onto a ship in a foreign port that an electronic manifest of 
that container's contents is sent to the CBP by the shipping company. 
The Coast Guard in turn must be notified 96 hours before a cargo vessel 
is scheduled to arrive in a U.S. port of call. During that 96 hour 
period, the Coast Guard uses an intelligence driven, risk-based process 
to determine what the appropriate level of engagement should be for any 
given commercial vessel arriving at a U.S. port: should that vessel be 
denied entry? Should the vessel be boarded at sea well outside the U.S. 
port of call?
    For the tracking of smaller vessels, to include the one million or 
so pleasure craft registered in Florida, Florida Fish & Wildlife 
Conservation supports the funding of the ``America's Waterways Watch'' 
program as opposed to the installation of an electronic tracking system 
on each craft. The tracking of such a large volume of pleasure craft in 
Florida waterways presents very great electronic challenges, and more 
importantly, almost insuperable challenges to attempting anything like 
applying timely analysis and risk-based processes for determining the 
threat posed by any given small vessel.
    As discussed previously Florida's location and geography create a 
lucrative target for smuggling illegal drugs through our ports. These 
illegal drugs can then be repackaged or transshipped across the United 
States. Ongoing efforts to tighten the US/Mexican border create an 
opportunity for drug-traffickers to increase shipments through the 
Florida corridor. Nationally, there is increasing evidence that drugs 
are being transshipped from our region to Europe. Again, the 
international aspect of drug trafficking impacts Florida, which sits 
astride these distribution routes. The drug threat assessments are 
further complicated by current vulnerabilities:
        a. Regional threat versus state response. Florida is in the 
        middle of a major drug trafficking corridor that includes air, 
        land, and sea approaches. Adjacent states and countries, major 
        transportation hubs, and large bodies of water are part of the 
        corridor. While Florida has many federal, state, and local 
        partners striving to prevent and to interdict drug trafficking, 
        we do not have a regional strategy for response.
        b. Inadequate Resources. While our federal, state, and local 
        partnerships are strong and effective, there are insufficient 
        staffing at all levels to adequately cover the large geographic 
        area and the volume of vessels, imports and exports, and daily 
        transactions. Non-intrusive inspection technology is being 
        increased, but again is not in sufficient quantities to meet 
        the increasing volumes of goods being moved through our ports. 
        This technology is seldom available outside Florida's 14 public 
        ports.
        c. Internal conspiracies: Drug trafficking is an illegal, high 
        profitable activity. The insertion or extraction of illegal 
        drugs can occur at any point along the route that otherwise 
        legitimate cargo is being moved. Involvement in this illegal 
        activity is not limited to port personnel but could easily 
        include the vessel's crew or others able to access the cargo on 
        the port (longshoremen, stevedores, checkers, pier 
        superintendents, or communications workers). Unsupervised 
        access to cargo presents opportunities for internal 
        conspiracies.
        d. Tension between commerce and security. Security costs impact 
        the bottom line for our ports. Perfect security would shut down 
        our ports. There are tradeoffs that must be weighed each day. 
        The tension between maintaining strong security and allowing 
        free flow of commerce is real and a concern for government and 
        port leadership.
        e. Poor information sharing. Despite the lessons on 9/11, 
        intelligence sharing on our ports is limited. Port directors 
        and security directors seldom have access to intelligence 
        reports. This effort is being addressed by the Florida 
        Department of Law Enforcement, which is implementing a Florida 
        Fusion Center concept, which will only be successful if 
        information is shared by federal, state, and lanks only behind 
        Tampa. This is not the case today.
        f. Imprecise cargo trafficking. As discussed, the large volume 
        of cargo traffic overwhelms ports across our country. 
        International agreements, non-intrusive inspection technology 
        and security staffs are all important in addressing the 
        problem. However the volume of cargo being moved exceeds our 
        ability to inspect it.
        g. Federal Agency and State Level Planning. As I have 
        consistently stated, our federal, state, and local partnerships 
        are effective. However, we do not have a national/regional plan 
        that unifies the drug threat assessments and response plan at 
        all levels of government. These assessments and plans must 
        involve our port directors and leadership.
        h. Proactive Law Enforcement Response. Law enforcement has 
        traditionally responded to criminal activity immediately and 
        then investigated to determine who/what caused the illegal 
        activity. To prevent a transportation security incident or drug 
        trafficking, law enforcement must be proactive with 
        intelligence based policing. Threat assessments that result in 
        actionable intelligence are necessary to prevent illegal 
        activity. This also requires information sharing and 
        coordinated operations at all levels.
        i. Nexus between drug-trafficking and a transportation security 
        incident is not operationalized. The connection between drug 
        trafficking and a transportation security incident has been 
        recognized; however, we must improve sharing of lessons learned 
        and analysis of drug trafficking as it might be useful to 
        prevent a future transportation security incident. Sharing of 
        intelligence will be important here also.
        j. Counter-drug operations are difficult to resource. Military 
        requirements and competing priorities have reduced the emphasis 
        on counter-drug operations in this section of the United 
        States. This is evident in the recent removal of US Army 
        helicopters from the Operation Bahamas, Turks, and Caicos 
        (OPBAT) mission that has been successful in interdicting drug 
        trafficking through the Caribbean. Previously, surveillance 
        capabilities were reduced to meet operational requirements 
        worldwide.
        k. Transportation Worker Identification Credential fielding is 
        not optimizing existing technology. Florida is prepared to 
        implement a biometric credential (TWIC aligned) today. 
        Difficulties in collaboration with TSA are preventing this from 
        being realized.

How to Close the Gap
        a. Fix Responsibility. Drug-trafficking organizations are 
        international. Too often, our response is local or community 
        based. While states are funded by DHS for counter-terrorism, we 
        do not have a regional counter-drug strategy that addresses 
        air, land, and sea approaches to our state. Federal partners, 
        adjacent states, and local agencies must be included in our 
        strategy. We must fix responsibility at the national and 
        regional levels to develop and implement the plan. Someone must 
        be in charge. This will result in synergistic successes in 
        preventing drug trafficking and a transportation security 
        incident.
        b. Develop a regional counter-terrorism and counter-drug 
        strategy. As mentioned previously, drug-trafficking is an 
        ongoing process with potential to be used as an avenue for 
        terrorists to create a transportation security incident. Many 
        federal, state, and local agencies are involved in counter-drug 
        operations. Most efforts are local. We do not have a 
        coordinated, multi-state, air/land/sea, and law enforcement 
        focused regional strategy to prevent and to respond to a 
        transportation security incident. Regional strategies across 
        the United States should cascade from a national strategy.
        c. Produce a regional drug threat analysis. While there are 
        multiple drug threat analyses available, we lack a unified 
        assessment that could drive coordinated action in our region. 
        Drug trafficking into Florida occurs through the states that 
        border the Gulf of Mexico (responsibility of the Gulf Coast 
        HIDTA), highway systems from Atlanta (Atlanta HIDTA), water 
        approaches (Joint Interagency Task Force South), and air 
        transportation routes. A common drug threat assessment would 
        assist a more unified federal, state, and local response. An 
        excellent way for this to happen is federal and local support 
        of the important fusion center initiative being implemented by 
        the Florida Department of Law Enforcement.
        d. Share information. The sharing of information among federal, 
        state, and local law enforcement can be improved. The Florida 
        Department of Law Enforcement is taking the lead to address 
        this problem. The Florida Fusion Center protects our state by 
        incorporating an all crimes/all hazards approach to information 
        sharing. Intelligence ``Stovepipes'' that contributed to the 
        September 11, 2001 attack on America must be reduced. Privacy 
        considerations and agency policies adversely impact the sharing 
        of law enforcement intelligence today. This is evident each day 
        as Florida struggles with the Transportation Security 
        Administration (TSA) to align federal and state port access 
        credential. TSA has cited federal laws that preclude sharing 
        criminal background information.
        e. Involve Port Directors and Port Security Staff. Port staff 
        are not provided daily intelligence updates. They should be 
        screened for security clearance and included in daily 
        intelligence and operations updates that affect ports in 
        Florida and the United States. They should also receive 
        relevant operations planning information that involved ports or 
        the maritime environment. Port staff are included in exercises 
        conducted by our Regional Domestic Security Task Forces. 
        However, this must expand to include intelligence sharing and 
        daily operations interaction.
        f. Prioritize OPBAT. Operations Bahamas, Turks and Caicos has 
        been an important deterrent of drug-trafficking into Florida 
        for many years. Resources reductions have severely reduced 
        operational capability. Most recently, the United States Army 
        removed its Blackhawk helicopters to support other operations. 
        Prior to the military deployments, significant resources were 
        dedicated to preventing the movement of drugs from source 
        countries. We should return to this level of interdiction as 
        soon as possible. In the interim, we should coordinate existing 
        strategies and resources among all partners.
        g. National Efforts with Regional Emphasis. The global problem 
        of drug trafficking requires a national and international 
        solution. A formal strategy must be created with fixed 
        responsibilities that involve our seaports, but also the entire 
        inter-modal transportation systems of seaports, airports, 
        railways, highways, and remote entry points. Lessons learned 
        from counter-drug operations must be analyzes for counter-
        terrorism. Sharing of information from this national initiative 
        is imperative.

Conclusion
    Florida is recognized as a national leader in port security. 
Florida has implemented one of our nation's first drug control 
strategies. This strategy clearly emphasizes the importance of port 
security as part of our law enforcement response. We continue to 
emphasize and to resource drug prevention and drug treatment as equal 
to law enforcement in our strategic efforts against drugs. While we 
have strong, effective programs across the state and we have enjoyed 
significant success in many of our initiatives, drug trafficking 
continues at an unacceptable level. It will only be reduced with 
efforts that are synergistically applies with federal, state, and local 
resources. We thank this Subcommittee for its interest in Florida's and 
our Nation's security. Your efforts help create the conditions to 
reduce the illegal drug supply, secure our ports and transportation 
systems from a transportation security incident, and most importantly, 
protect our neighborhoods and families. Thank you.

    Ms. Sanchez. Thank you. And I thank all the witnesses for 
their testimony. And I will remind each member that he or she 
will have five minutes to question the panel. And now I will 
recognize myself for questions.
    I think what we will do is we will go through a series of 
questions and, since it is just the two of us, I will say to my 
colleague we will have plenty of time to ask our questions of 
the group.
    I would like to begin by putting into this statement for 
the record a Unanimous Consent Request to enter from the Miami 
River Marine Group, their statement with respect to South 
Florida Regional Maritime Exchange, Promoting Growth of 
Waterborne Commerce.
    Without objection, it is entered into the record.

                             For the Record

                Prepared Statement of Dr. Fran Bohnsack

              Executive Director, Miami River Marine Group

                                for the

                 United States House of Representatives

                     Committee on Homeland Security

      Subcommittee on Border, Maritime and Global Counterterrorism

                               Regarding

                South Florida regional Maritime Exchange

                Promoting Growth of Waterborne Commerce

    CHAIRWOMAN SANCHEZ, RANKING MEMBER SOUDER, AND DISTINGUISHED 
SUBCOMMITTEE MEMBERS, it is my honor to have the opportunity to submit 
a statement for the record about what the maritime industry is doing to 
enhance maritime domain awareness around the country, and how a 
Maritime Exchange would benefit the Southern Florida port business 
community. My name is Fran Bohnsack and I am the Executive Director of 
the Miami River Marine Group.
    The Miami River Marine Group (MRMG) is a private port cooperative 
of cargo carriers and marine related industry dedicated to preserving 
the Miami River as a working river. In the past ten years, improvements 
in local and international economies have been reflected by an increase 
in the activity and vitality of the working river.
    The Miami River is the fourth largest port in the state of Florida, 
serving as economic catalyst for the South Florida region and providing 
vital shipping links to the shallow draft ports of the Caribbean and 
Central and South America. As a working river, the Miami River's 
navigation and commercial shipping directly generates millions of tons 
of cargo each year and thousands of direct and indirect jobs.
    Goods shipped from the Miami River are sent to over 80 ports of 
call in the Caribbean and Central and South America. Just as Miami 
serves as the gateway to the Americas, the Miami River serves as the 
shallow draft port for foreign flag vessels coming from similar shallow 
ports in this part of the world (shallow drafts are necessary for the 
Miami River which is only 15 feet deep). Economic projections for cargo 
movement indicate that Miami River shipping growth is expected to 
continue at a healthy rate.
    Among the keys to any successful seaport, including the Miami 
River, are deep water, adequate storage and berthing facilities, and 
access to inland transportation networks. Equally important--and often 
overlooked--to the efficient, cost-effective and safe movement of goods 
is the information network which ensures that all partners in the 
transportation chain are aware of the shipping and transit information 
necessary to promote the flow of commerce.
    One of the principal indexes of good management in the maritime 
field is the turnaround a ship receives in port. Simply stated, the 
shorter the period between arrival and departure, the better the 
turnaround; and the lower the costs. Ports which offer faster 
turnaround times will have an economic advantage over other ports. Yet 
a great deal of communication is required to ensure a ship is serviced 
quickly and safely: a berth must be available, pilots must be ordered, 
tugs must be scheduled, linemen must be in place to handle the lines as 
the ships come alongside, labor must be available, and federal agency 
inspections must be closely coordinated with the vessel's arrival to 
eliminate unnecessary delays. All of these activities depend on up-to-
the minute communication of any changes in the vessel movement 
schedule.
    These are just a few of the activities which must take place each 
time a ship arrives in port. In addition, storage and transportation 
must be arranged, entry must be made on the merchandise, chandlers must 
deliver food and other supplies, the crew must be paid, and so on. The 
list of people who must be kept apprised of ship movements is a lengthy 
one, and given the number of factors which can conspire to delay a 
commercial cargo vessel, the schedules are often outdated the moment 
they are reported. Keeping the interested parties informed of changes 
is often a full-time job for those who are charged with the 
responsibility to do so.
    Many port communities have addressed this need by forming trade 
associations to acquire, preserve, and disseminate maritime and other 
business information. These organizations, known as Maritime Exchanges, 
are non-profit organizations which develop expertise in the areas of 
Ship Reporting and conduct other activities designed to promote trade 
and commerce in their regions.
    Maritime Exchanges are dedicated to providing information, 
communications and other services in order to ensure safe, secure, 
efficient and environmentally sound maritime operations. These maritime 
information service organizations represent the commercial maritime 
community's shared commitment to proactively address the challenges 
faced by the maritime industry, as well as the U.S. Coast Guard, U.S. 
Customs and Border Protection (CBP), U.S. Maritime Administration 
(MARAD), the Office of Naval Intelligence (ONI) and other federal and 
state agencies in a cooperative and cost efficient manner.
    While not all of the 351 seaports throughout the U.S. enjoy the 
benefits of a Maritime Exchange, it is certainly noteworthy that all of 
the top ports, and several of the smaller ones, have recognized the 
need to centralize the collection and distribution of maritime 
information through an Exchange. Maritime Exchanges are vital to the 
maritime industry and their government partners in Baltimore, British 
Columbia, Jacksonville, Alaska, Puget Sound, San Francisco Bay, Hawaii, 
Southern California, New York and New Jersey, the Delaware River and 
Bay, New Orleans, Virginia, Texas and Portland, Oregon.
    Several of the people who oversee the operations of these maritime 
exchanges are former Coast Guardsmen and have served as Captains of the 
Port at various places, and all the people who run these maritime 
exchanges have extensive maritime experience, including as licensed 
master mariners, and senior maritime industry executives. For those 
ports in which no Exchange is located, undoubtedly much of the same 
work is being performed, yet in many instances, those who receive the 
inquiries or create the reports--pilots, harbor masters, port 
authorities, agents, and others--must do so in addition to their normal 
responsibilities.
    Although the majority of Maritime Exchanges were formed in the 
latter part of the 19th and early 20th centuries, the need for 
Exchanges is equally evident today. While information sharing was 
certainly challenging in the era of the telegraph and telegram, the 
average ship transit was several times longer than today's voyages. 
Today, transit times are shorter, and communicating information among 
transportation partners is light years faster. With the advent of new 
technologies, changes in shipping patterns, ever larger vessels, and 
increasingly stringent maritime security measures, the challenges to 
the maritime sector are progressively more complex. As a result, two 
new Exchanges have formed in the last few years, and several other port 
communities are considering forming Exchanges, as well.
    Exchanges exist to keep members informed on a variety of matters, 
not the least of which are the ever-important vessel schedules. Yet 
most Exchanges also address the myriad issues surrounding commercial 
port operations, such as pending legislation, new regulatory 
requirements, the growing federal agency information reporting 
requirements, increasing crew, passenger, and cargo inspections, and 
advances in technologies associated with vessel, cargo and crew 
processing. These are just a few of the reasons why the Miami River 
Marine Group has been working to establish a Maritime Exchange in 
Southern Florida.
    Like any trade association, Exchanges serve as a venue under which 
often competing port interests can come together to address issues of 
mutual concern, or to identify opportunities for improvement to the 
overall community.
    Exchanges can also help identify trends in shipping that can be 
used to both facilitate daily operations and undertake long-term 
strategic planning. They can coordinate training programs, such as 
hazardous material transportation or security, and in some cases, they 
will lobby for the rights of industry. Often tagged ``the voice of the 
port,'' an Exchange will unite members under a single umbrella to 
oppose or support initiatives as they arise. Like other trade 
associations, the whole is greater than the sum of its parts: with each 
additional member, the Exchange voice is strengthened exponentially.
    And of course, Exchanges can be good opportunities for networking, 
putting members in touch with others who have similar interests to find 
or obtain new business relationships and share ideas.
    Why is a Maritime Exchange needed in Southern Florida? Although 
some of the activities described above are consistent with other trade 
associations, Marine Exchanges are unique because of their day-to-day 
operating role in their communities. Although the full scope of 
activities undertaken by each Exchange in the U.S. differs based on the 
unique needs of its port community, all provide the same basic Ship 
Reporting services:

    Ship Reporting: Exchange watchstanders, most of whom operate 24/7, 
track vessel movements via traditional means, such as contact with the 
vessel agents, pilots and others with vessel schedule information, as 
well as through AIS or satellite technologies. They enter the 
information into their databases and make it available on a real-time 
basis to those with a right or a need to know. With the information 
consolidated into a central community database, Exchanges can then 
distribute reports of historical, current and estimated ship movement 
activities to their members. Using a neutral organization such as an 
Exchange alleviates concerns over sharing what might be considered 
proprietary commercial information.
    In addition, vessel agents use Exchanges to transmit instructions 
or other information to their ships while en route, and the ships' 
masters or pilots will contact the Exchange with a variety of 
questions, such as whether water is available at the berth, what time 
tugs will be alongside, etc.
    Unlike their federal counterparts who rotate in and out of ports on 
a frequent basis, Exchange staff members are specifically trained in 
local port operations and develop institutional memories. As a result, 
they often serve as the ``eyes and ears'' of the port community and law 
enforcement agencies, and can detect and report anomalies when 
appropriate.

    Vessel Particulars: Private and public sector port operators often 
have a need to obtain detailed information about ships as they enter 
port. From length, breadth and weight, to owners, previous names, P&I 
Club, and safety certificate expiration dates, Exchanges are 
repositories for a wide-range of vessel information.

    Community Information Clearinghouse: Exchanges are often conduits 
between federal agencies or state authorities and the local 
communities. They collect, broadcast and store navigation restriction 
notices, security bulletins, bridge openings, dredging schedules, and a 
host of other information.

    Answering Services: Many Exchanges also operate 24-hour answering 
services for their members. In addition to traditional message taking 
functions, often Exchanges are prepared to respond to the questions or 
messages from callers--many of which are related to a particular 
vessel's schedule. These answering services can be utilized during 
lunchtimes, holidays, nights, weekends or any combination of the above. 
Subscribers have the choice to have callers patched through to their 
cell phones, messages emailed, or messages held for pickup.

    Publications: Newsletters, port directories, and other publications 
keep members informed and present revenue opportunities through 
advertising and/or subscriptions.

    Other Services: There are any number of roles Exchanges can play in 
support of their port communities. Some may manage job posting bulletin 
boards, serve as harbor safety or area maritime security secretariats, 
or offer boarding agent services. The list of programs and services can 
be as long or as short as needed by the local community.

    Other Automation Services: These may include:
        <bullet> Cargo manifesting: Exchanges, like port authorities, 
        may operate community-based cargo manifesting and release 
        systems for their communities. In addition to helping port 
        customers comply with reporting regulations mandating the use 
        of the CBP Automated Manifest System, these types of community-
        based systems centralize receipt and distribution of messages 
        pertaining to cargo status (inspection required, cargo 
        released, cargo held, etc.).
        eNOA/D: With the June 05 requirement for electronic crew/
        passenger manifesting via the Coast Guard's electronic Notice 
        of Arrival/Departure system, several Exchanges have stepped in 
        to help their communities achieve compliance in a cost-
        effective manner.
        PORTS: In partnership with the National Ocean Service, 
        Exchanges serve as local sponsors for their regions' Physical 
        Oceanographic Real Time Systems.
    In order for an Exchange to succeed in Southern Florida, it must 
have the buy-in of the local maritime constituencies. These may include 
both private-sector port businesses, public port authorities, and 
federal, state, local agencies, and elected officials, if appropriate. 
Specific organizations may include:
        <bullet> Pilots
        <bullet> Container and bulk carriers
        <bullet> Cruise ship operators
        <bullet> Steamship agents
        <bullet> Port Authorities/terminal operators/stevedores
        <bullet> Warehouse operators
        <bullet> Tug/barge companies
        <bullet> Trucking/rail companies
        <bullet> Importers/exporters
        <bullet> Brokers/forwarders
        <bullet> Labor
        <bullet> Admiralty law firms, banks, insurance companies
        <bullet> Surveyors, fumigators, and other service providers
        <bullet> U.S./State/County legislators
        <bullet> Law Enforcement
        <bullet> Key Federal Agencies: CBP, Coast Guard, USDA, FDA, 
        COE, etc.
    Needless to say the initial organizational issues will take some 
period of time to resolve. Once these issues are resolved, however, 
members of the Southern Florida port business community will be well-
positioned to launch an organization that will benefit all maritime 
stakeholders in the region.
    While a pool of initial start up funds will be necessary to open 
the doors, the distinct advantage of a Maritime Exchange over other 
types of associations lies in the fact the Exchange can develop a suite 
of programs and services which can be offered on a for-fee basis to 
ensure the continued viability of the organization over the long term. 
While membership dues remain an important component of an association's 
revenue stream, the organization is funded primarily by those who use 
its many services.
    There will be individuals who resist the concept. These persons may 
believe they are getting the services they need today at no cost, so 
why should they pay to fund a new organization. The response is clear: 
Southern Florida ports are doing well today, but could they do better? 
Conversely, can these same ports be kept from slipping in the face of 
an ever-increasing competitive global shipping industry? Can steps be 
taken to ensure that costly new federal regulations do not over-burden 
port businesses?
    The answer to all these questions is yes, and an Exchange is one 
mechanism to achieve those important goals.
    I would like to thank you, Ms. Chairwoman and Members of the 
Subcommittee for the opportunity submit this statement today. I am 
happy to answer any questions you may have.

    Ms. Sanchez. Okay. Let's see, what questions do I have for 
you all?
    I would like to begin with asking about, now, Captain, that 
we have so much of an emphasis going on terrorism and counter-
terrorism efforts, how are your resources? Is the Coast Guard 
in this area still getting to the things it used to do, before 
we put all these other responsibilities on you? You know, 
pleasure craft, safety issues, search and rescue. Or has that 
affected your performance? Resources, have they been drawn away 
from the original things that the Coast Guard used to do? Do 
you need more help in that area?
    Captain Schultz. Madam Chairman, here, locally, Coast Guard 
Sector Miami and the entire Seventh District has always been a 
very operationally fast-paced location within the Coast Guard.
    As I mentioned in my opening statement, it was in 2004 that 
we created the first Sector Command here. And I think that move 
has actually served us incredibly well. We married together 
what was the former Group Operations, which did the boating 
safety, the boardings, the search and rescue, with the former 
Captain of the Port functions, which involved the full spectrum 
of marine safety, pollution response. We put that under one 
command.
    We have had some synergies that have stemmed from that. The 
operational resources and the regulatory authorities are all 
nestled in one place.
    Our missions have clearly grown, as you indicated, since 9/
11. Maritime Homeland Security was a smaller slice of what we 
do. Today it constitutes probably a quarter or so of our total 
allocation of effort.
    Our operations have grown with those new responsibilities. 
The Coast Guard has grown at large, close to 4,000 billets on 
the macro sense. Here, locally, I couldn't give you the exact 
specifics on our bodies. I jumped onto the organization here in 
2006, in the new framework we are operating in.
    We are well staffed and funded for our responsibilities. We 
are busy, but I don't think we have had any letdown in service 
delivery to the public down here.
    Ms. Sanchez. Okay. Thank you, Captain.
    Here is the problem that I have, and one of the reasons I 
wanted to visit the Miami Port and see and get your testimony 
on record. I don't know which one of you mentioned that there 
are probably over a hundred thousand pleasure boats registered 
here, between the three or four ports just in the immediate 
area.
    You know, when were talking about identifying ships, boats, 
whatever, most of the pleasure--almost all the pleasure craft 
don't have a tracking monitor to them, or what have you.
    What do we do? I mean, what is your best concept? And I 
will ask all three of you about what we do with these pleasure 
craft with respect to going off to some island and picking up 
people who shouldn't be in this country that are being brought 
in, or drug trafficking, or contraband smuggling. I mean, what 
is the best idea you all have come up with? Because I know you 
haven't done it yet. I mean, you have done layering, you have 
done some projects, some pilot projects, but what do you think 
in the long run? What do we do about a port like Miami, that 
has so many pleasure craft attached to it?
    Captain Schultz. Well, Madam Chairman, I threw out the 
number of 170,000 vessels here in southeast Florida in three 
counties alone, so I will take the first stab at that question.
    I guess what we are doing is we do employ a layered 
defense, and there are many different threats. We have the 
threat of a terrorist type of activity in a seaport, we have 
the threats of illegal migrant smuggling, illegal drug 
smuggling. The other missions we have down here, people 
violating our living marine resources; we have a lot of rich 
resources out here, fishes and coral reefs and things. We are 
involved in all those missions.
    What we do currently is we try to get our arms around the 
domain as best we can with the available sensor information we 
have. We employ a layered strategy to that. We have cutters; 
Sector Miami has Coast Guard cutters. We don't control the 
aviation assets, the airplanes and helicopters directly, but we 
have an air station that services two sectors down here. We 
have flights most every day of the week. We partner with 
Customs and Border Protection, who has an air marine operation 
down here.
    So, generally, we have maritime patrol aircraft flying over 
the Straits of Florida, with the outer approaches, looking for 
vessels of interest coming across. We have our small boat 
stations. We have four multi-mission small boat stations that 
fall under my command here. We have those vessels on patrol. 
Our state partners, such as the Fish and Wildlife Commission, 
our local partners, have marine units that are on the water. 
And through those layered vessels, we are trying to stop those 
vessels that stand out as possibly intending mal-intent over, 
you know, legitimate business.
    That does get very challenging. The recreational vessel 
versus the vessel that is posing a threat, look the same down 
here. Do we have visibility on all the smaller vessels? As I 
mentioned in my statement, that clearly is an area where there 
is room for improvement. I think we have the challenge of the 
larger vessels, the commercial vessels; we have good domain and 
awareness on them through our classified and unclassified 
common operational pictures. There are new initiatives 
mentioned, such as Long-Range Identification Tracking that will 
come and bring even added value to that.
    But there is a legitimate challenge on small vessels. But 
we are employing day-to-day layered security. And it is 
presence, it is maritime cops on the beat on the water, it is 
intelligence. Intelligence is clearly a key component of that, 
too. And then we respond within the best of our capabilities to 
those threats.
    Ms. Sanchez. But, Captain, I have friends who have pleasure 
boats here who say it is very rare to see a Coast Guard cutter 
out there in the bay or, if there is, there is one, and most 
people know what time it goes out. And, I mean, these friends I 
have, and various say, you know, we could take our boat, go 
pick somebody up off an island, come back in. They have told me 
about the fact that, you know, if they were to do such a thing, 
they are supposed to go up the river and pick up the phone at 
some given spot and call in to the airport and talk to who is 
ever on the other end, I guess, of CVP and tell them they are 
in town. They say, yeah, Xerox a copy on Monday of your 
passport and send it in to us by mail.
    I mean, do we need more resources, or is just putting a 
station closer or easier for people to follow? I mean, even my 
friends say, why should we do that? Why should we go upriver 
six miles or eight miles and go and do that, only to get 
somebody out at the airport and it doesn't really matter? I 
mean, we could be telling them there is only four of us on the 
boat, versus ten of us on the boat. And they could care. They 
don't really know.
    Captain Schultz. Well, Congresswoman----
    Ms. Sanchez. What do we do? What do we do? What do we do--
can we do anything about it?
    Captain Schultz. Well, I think what we do do is we put our 
best capabilities forward. You mentioned a program that is 
actually run by Customs and Border Protection. It is their 
arrivals, vessels that come in from overseas that, typically, 
down here, it is a lot of times the Bahamas. That is about 50 
miles away at its closest point. And they have a local boater 
option. It is one scenario where they can call in and they are 
pre-screened and there is a certain level of legitimacy that 
goes with their registry in that program.
    But the small vessels, there isn't sufficient resource when 
you are talking 170,000 small boats alone in this reason, and 
that is a small sub-set of our region, where you are going to 
see every boat, every day.
    And I think as we look forward and try to get our arms 
around this thing called Maritime Domain Awareness, hopefully, 
you know, we are looking in the Coast Guard at a future major 
acquisition called Command 21, that will hopefully bring better 
sensors, better information management systems to integrate 
information from those sensors and databases, intelligence 
sources, to a product.
    Ideally, we need to see what is out in the area, we need to 
understand the threats it posed, we need to be able to share 
that information with our partners.
    So the short answer to your question is do we have--are 
there sufficient resources in my area every day to look at 
every boat coming in? Clearly not.
    Ms. Sanchez. Where I am headed with this is, you know, as 
the Chairwoman who also oversees all entry into the United 
States, and exits from the United States, as we tighten other 
areas, people will look for the areas that are least protected. 
And this seems to be pretty wide open, from my standpoint. So 
getting you all to really think about three, four years down 
the line, when we have actually got other places under control, 
this is going to be a sector that is going to be hit, I think. 
Hit in the sense of getting people into this country that we 
probably don't want here.
    I see that Colonel over there has----
    Colonel Janes. Madam Chair, your question, I would offer 
two responses. One, the integrated strategy that I talked about 
before, I will bet your friends have, in some cases, seen a 
sheriff's craft patrolling the water. And I think an integrated 
approach that takes all the law enforcement, all resources, is 
something that drug trafficking, counter-terrorism, should be 
unified with all resources that we have, and not just put it on 
the Coast Guard.
    The second point, I believe, as a vehicle-borne, improvised 
explosive device, a suicide/homicide bomber, we are going to 
have to have an awareness effort in our communities, our 
neighborhoods. Likewise, those who have small crafts need to be 
alerted to the threat, and, when there is unusual or 
threatening behavior, a system to report it.
    The Fish and Wildlife Conservation group here in Florida 
expressed some concern to me about funding that may be taken 
away from Americas Waterway Watch Program, which was intended 
to do that, to provide that awareness, to encourage the 
dialogue that these 1,000,000 pleasure craft in Florida, that a 
lot of them would be sensitive, as good citizens, to that 
threat and might report something.
    I think it is far beyond the Coast Guard or any local law 
enforcement to check all this. But, as in a neighborhood, 
collectively, we as citizens, I think, can do something about 
it, to prevent it.
    Ms. Sanchez. Did you have any comment?
    Mr. Dryden. Yes, I do. I think there is really three areas. 
It is a very complex problem. Just knowing that a vessel is 
coming in, a pleasure craft is coming in, in a free and open 
society like we have, it is almost impossible to be able to 
take every pleasure craft, vet it, understand who is on board 
and what their intent is. It really just isn't going to happen 
that way in the real world.
    It would be nice if we could solve it with technology and 
we could solve it with just, you know, applying more people to 
it.
    I think what you have to do, there is several things to 
help along the way, but it doesn't quite get you all the way. 
One is you have to be able to free up the people that are busy 
doing the grunt work, that can focus and use their talents on 
looking for anomalies. And, again, not to say technology-
generated things here, but things that are suspicious. 
Suspicious behavior. Whether it is from the sheriff's office or 
from the Coast Guard, or whoever is out there.
    The second is, you have to start applying technologies and 
trying to push the state of the art of some of these 
technologies. Which I believe the Coast Guard is doing. They 
are working pretty hard on things. I have referenced in my 
statement this Automated Scene Understanding. To be able to 
classify and understand who are these vessels. But not just 
that they exist there, but what is the pattern. Are they doing 
something that is unusual? You know, is there something 
happening at a period of time at night? What is going on? A 
particular size craft.
    Those might be the things that, if you could automatically 
sense that and alert watch-standers, that would go a long way 
to look into anomalous behavior. Because, again, just knowing 
that they are a sport fisher really doesn't gain us anything.
    And, lastly, I think the other big thing is there has to be 
a more effective way to share information between all the port 
partners. There has to be a way where we can get past they are 
trying to unclassify or keep so many things close to the vest. 
And I think there is a willingness. At least, what I have seen 
in the Coast Guard, as well as in Florida, there is a 
willingness to do that. The question now is trying to figure 
out the proper way to make that happen, and make it happen 
fairly rapidly.
    Ms. Sanchez. Thank you.
    I will defer some questions and give some time to my 
colleague from Florida.
    Mr. Bilirakis. Thank you, Madam Chair. I appreciate it.
    I want to follow up on Chairman Sanchez's question. Does 
the Coast Guard have policies--and this is addressed to Captain 
Schultz, of course--does the Coast Guard have policies and 
procedures for identifying, tracking, and responding to the 
increasing small vessel threat? If not, are there plans to 
develop these policies and procedures in the near future?
    Captain Schultz. Congressman, we, as I mentioned in 
response to the Madam Chairman, we are very concerned with any 
vessel posing any type of a threat. The small vessels, I think, 
bring a unique challenge in that our current suite of sensors 
is best suited for larger vessels, the radars that we employ.
    Obviously, when we are talking about flying airplanes, 
maritime patrol aircraft at sea, larger vessels are easier to 
detect than a small, unlit, fast vessel. Those are the type of 
vessels that we are challenged with right now, that are 
smuggling illegal migrants or smuggling drugs.
    Do we have a plan or a policy? I am going to leave the 
policy aspects, I think, to the folks in Washington. Here, 
locally, our plan is to apply the given resources we have 
generic to the Coast Guard, force-multiply that, as Colonel 
Janes talked about, with our state and local partners through a 
coordinated effort. We have many coordinating bodies. We 
coordinate some of the seaport aspects through the area of 
Maritime Security Committee and Subcommittees. We coordinate 
some of the other waterfront and coastal-type activities in 
support of migrant interdiction or drugs through entities like 
the Regional Domestic Security Task Force, where we meet on a 
recurring basis with our state and federal law enforcement 
partners. As a matter of fact, we are meeting tomorrow here. 
And that is all my state and local partners on the waterfront; 
we will get together and talk about what the current threats 
are, what has happened since we last met.
    So, again, the policy piece, I think is best addressed at 
the National Coast Guard level. Here, locally, we are employing 
tools like the Hawkeye System, which I mentioned we were the 
initial test site. I think that is at five or six other Coast 
Guard locations.
    We have the Visualization Tools Project, which is helping 
us automate some of those functions where there used to be a 
watch-stander thumbing through databases or flipping switches 
on different types of sensors. Now these <dagger><dagger> the 
Visualization Tools brings some automation to that. There is 
alerts we can set. If a vessel with automatic identification 
system comes in--I am talking a bigger vessel now--if that 
vessel comes in early, and we have some rules established with 
those tools, an alert goes off that that vessel is here before 
we expected it. That is very much simplified than an individual 
flipping through lists to see when those vessels are due and 
then correlating that to what he sees in the radar and all the 
different AIS depictions on the screen.
    So we are doing things. We are embracing those technologies 
we have. There clearly is room for enhanced technologies, 
better sensors, better integration of sensor data and other 
sources of information to make us more effective. But here, 
locally, we are applying what we have generic to the Coast 
Guard, partnering it up with state and local partners, 
Department of Defense assets that come in on occasion to 
support us with maritime patrol aircraft. And we are doing, you 
know, due diligence to the task at hand.
    Mr. Bilirakis. Thank you, Captain.
    Captain, what is the status of the Coast Guard's Long-Range 
Identification Tracking Program?
    Captain Schultz. Sir, as I understand the status, it is, 
you know, there are requirements set forth in the Safe Port 
Act. Here, locally, I am not on the cutting edge of the status 
of that rollout. My understanding is, you know, when that 
comes, that will bring some enhanced information on long-range 
tracking of vessels, vessels that are transiting within a 
thousand miles of our coastline. We will be aware of that.
    Right now, here, locally, I have visibility with Hawkeye, 
through the ability to detect and analyze AIS tracks out to 30, 
40, 50 miles into the Straits of Florida.
    Long-range tracking will bring us visibility, as I am sure 
you are aware, on all U.S. vessels anywhere in the world; on 
other vessels 300 gross tons or larger making approaches to 
U.S. ports.
    As far as the actual specific status, the funding, that is 
a little bit out of my lane down here, sir.
    Mr. Bilirakis. Okay. Well, I will look into that further.
    Colonel Janes, I have a few questions, if I may. Would you 
please briefly explain some of the differences between 
Florida's diverse ports and the challenges those differences 
present in securing them?
    Colonel Janes. Certainly, Congressman.
    The--I chair the Florida Seaports Security Standards 
Council, and we look at the minimum standards, but also have 
talked many issues across our state.
    The different governing structures will indicate how ports 
are funded, the private businesses that they orchestrate. In 
some of our ports, they have security personnel that come from 
the local sheriff's office. In other cases, they are hired.
    The standards of certified law enforcement versus hired 
security and who should be manning different checkpoints, all 
come up to be critical issues that costs the ports funding, but 
also get into the interpretation of the standard and how well 
it is being applied.
    The involvement of local government in the ports, again, if 
the county is heavily participating in the funding, the local 
governance could be a board that is comprised of different 
members across the state.
    The bottom line, Congressman, is there is no standard model 
for 14 ports. And the fact that we do have 14 ports, the 
governance is varied, the businesses that they transact, some 
do all, cargo, cruise, all business that a major port would do. 
Others do a very focused level. So each port has to be 
adjusted.
    The great discussion that addresses your question is in the 
Seaport Security Standards Council, we just had a major 
discussion about should versus shall. And in many of the 
standards, the word from the Florida statute is should. And 
that recognition is the ports vary significantly, that you 
cannot put a uniform standard on every port. The inspector who 
is checking with compliance must go in and determine has that 
port done everything possible within the intent of the 
standard.
    Mr. Bilirakis. Thank you very much.
    I am please that you highlighted the importance of the 
America's Water Watch Program in your written testimony. I am a 
strong proponent of that.
    Would you please briefly explain the benefits of this 
program--and you did go through it--and its importance in 
increasing Maritime Domain Awareness?
    Colonel Janes. Again, Congressman, my understanding, and, 
again, working with our Fish and Wildlife partners who we look 
to for the small craft security in Florida, in addition to our 
local partners, the focus of the program that they have made me 
aware of, that if we lose it, I would be concerned, is that it 
really is an awareness, an education of what are the 
expectations of navigation in Florida's waterways, and what 
could be the different threats. What are illegal actions, 
suspicious action? And it also helps to translate to our boat 
operators, vessel operators, that they, too, have a 
responsibility in security. It is not just the funded, the 
governmental aspect. That they can prevent a terrorist act, a 
transportation security incident, and an illegal act, drug 
trafficking, by reporting it.
    So it is awareness, involvement, not unlike what we would 
want in our community neighborhoods.
    Mr. Bilirakis. Are you in favor of expanding the program?
    Colonel Janes. Absolutely. I think it is essential to what 
we do, both air, land and sea. We--we can't fund enough 
protection against drug trafficking and a terrorist act.
    Mr. Bilirakis. Okay. Thank you very much. Appreciate it 
very much. Thank you.
    Madam Chairwoman.
    Ms. Sanchez. Okay. We will go to second round of questions. 
I have some questions on--to both Captain Schultz and to Mr. 
Dryden.
    Viz Tools. Can you expand on how Viz Tools operates and 
what components make the Viz Tools, and what role does The 
Mariners Group/Command Bridge Software have within Viz Tools?
    Captain Schultz. Defer to you first, then talk----
    Mr. Dryden. All right.
    Captain Schultz. ----about our applications or----
    Mr. Dryden. Yeah, I will shy away from the operational 
side, and let you do that.
    But just from a technology standpoint, one of the big 
problems, as I talked about, was there is a lot of information 
flowing into a Command Center. Some of that could just be 
manual and telephonic, other is electronic from all these new 
systems.
    One of the major problems is how do you take something--how 
do you take all that and put it together into something 
meaningful. Just the fact that you have a lot of blips out 
there doesn't really mean anything. So trying to get to this 
actionable situation awareness is a real issue.
    So, to your question about how is it made up, there is 
really multiple parts. The first one is how do you fuse all 
that information together. Once you have that, so instead of 
just radar standing stand-alone, and AIS stand-alone, and all 
these other systems out there, once you find a way to bring 
those together, then you can start applying the second part, 
which is anomaly detection. So you can create business rules, 
as Captain Schultz was mentioning earlier, you can create those 
business rules, or doctrine, to go look for certain 
circumstances, for anomalies.
    So if you can find those anomalies with those business 
rules, A, you are going to do two things. One is you will find 
it when it happens, but the other is you are not going to have 
to divert your watch-standers from always looking for those 
situations, because you have another way to achieve that. So 
the watch-standers, then, are free to take action and look 
around for other things that are happening.
    And as the Coast Guard has increasing mission areas, you 
know, it becomes more and more of an issue of if you have a lot 
more to do, how do you figure a way to get there quickly.
    Ms. Sanchez. So what are the data points? I mean, how--is 
that coming off the radar? Is it only ships that have automated 
systems? I mean, wha----
    Mr. Dryden. Well, it is very--it really depends on the 
sensors and the systems. For instance, the today AIS, it really 
is the large vessels that have that. The commercial vessels 
coming in and out of here. So you are going to see those. And 
then you may see it on radar, but you are not going to know who 
they are, you know, if it is a small boat. You will know who 
all the big guys are. We correlate a lot of that information. 
But when it becomes a small craft, you really don't know. You 
may be able to tell that it is a particular type of vessel or 
so many feet. Even then, you are really using cameras to figure 
that kind of stuff out.
    So one of the big problems in the big exposures, I think, 
that exist in the nation, is figuring a way around that. To 
figure out which ones, A, are small boats, but then, do they 
have behavior that would require us to take action, number one.
    And number two is, the other piece of this, is intel. You 
have to be able to find a way to funnel intel, outside of just 
looking at the tactical operation. You have to know in advance, 
by intel, which is generally local intel. It could be from 
overseas, but in a small boat thing, you are generally going to 
look at the local law enforcement and what they hear on the 
streets and whatnot. You have to have a conduit.
    Ms. Sanchez. So they are calling it in or they are--the 
local intel.
    Mr. Dryden. If it is----
    Ms. Sanchez. It is called in, it is coming over the fax or 
the wires, something? How----
    Mr. Dryden. Right. I will let the Captain speak to the 
operational side of how they physically receive it, but, 
generally, yeah, you are getting manual intel that comes in, or 
you are getting phone calls that happen from-from--port 
partners.
    Ms. Sanchez. Captain?
    Captain Schultz. Congresswoman, he talked about the 
Visualization Tools product. The product that were testing, the 
Command Bridge from Mariner Group, as a proof-of-concept, that 
type of product does bring some of the automation to what 
before was a human-intensive project. We have a Watch Center, 
with a team of five watch-standers in there, and we have a 
sensor operator. We have folks that are working different 
systems, database systems.
    A visualization-type tool can bring to that Command Center 
those automatic alerts. It can integrate sensor data, 
information, present a visual, a graphic visual for the watch-
stander. If there is a search and rescue case going on, it can 
automatically populate, based on rules, that case, up on a 
status board. It can show us, if you fold in the capabilities 
of something called Blue Force Tracking, where our friendly 
forces, their positions are updated. Right now, we have that 
and it is manually updated. The watch-stander can look at that 
visual depiction and see where the Coast Guard resources are, 
partner law enforcement resources are, see the challenge at 
hand, better connect the dots, and get the right resource to 
the challenge.
    From the security in the seaport standpoint, I mentioned 
9,000 vessel arrivals here. In Port Everglades, in Port of 
Miami, where we have cameras with the Hawkeye system, we can 
feed the radar signature of that vessel. The bigger vessel, we 
may pick up on radar 20 miles out. We can see the AIS 
signature. We can see the radar signature.
    The Visualization Tools Project will take that AIS signal, 
and I mentioned an example before, if that vessel is in before 
its advance notice of arrival, with some parameters that are 
established in there in terms of alerts, we will get an 
automatic alert that that vessel is here early, before its 
intended arrival. That--the watch-stander will be immediately 
keyed to that. Otherwise, that watch-stander will be flipping 
through reams of paper, flipping through drop-down screens on 
computers, and trying to get to that same outcome. This is 
using automation to put more information, better situational 
information, at the fingertips of our watch-standers for, 
hopefully, you know, better security out the back side.
    Ms. Sanchez. You mentioned proof-of-concept. Can you tell 
me how far along you are and if this is going to have a--if you 
think it is going to have a positive outcome?
    Captain Schultz. Well, this--the proof-of-concept, we had 
the Command Bridge product for a couple months, and then some 
of the--some of the feeds were turned off. We have just 
recently been informed from the Department of Homeland Security 
Science and Technology Directorate that we have a six-month 
assessment--extension of our period to assess the product. And, 
based on our initial assessments of the Visualization Tools, 
the watch-standers, I as the Sector Commander, we did see value 
there. The ability to take information and better process 
sensors and databases, and bring that together, versus just one 
more box in the Command Center, it is clearly a good utility.
    So some type of visualization tool, some type of 
information management system, I think will be a key component 
in our Command 21 way forward, where we are hoping to bring 
greater capabilities to our Command Centers.
    Ms. Sanchez. Do you see, if, in fact, you get through the 
concept and you--do you see the Coast Guard maybe applying it 
in other ports?
    Captain Schultz. I think the--I think some type of a 
visualization tool product, some type of an information 
management system will clearly be part of our--of our, you 
know, way ahead with regards to Command Centers.
    This is one prototype, proof-of-concept beta test we are 
doing with this product. I am not really privy to what we are 
doing elsewhere in the country for trying comparable products, 
but, you know, feedback on what we have in hand, it has been a 
value add.
    We are excited about--we just got the extension for six 
more months here, so we are excited to put it through its paces 
for a few more months. And probably six months from now, I 
could be able to report out a lot more detail about exactly 
what it does bring to the table.
    Ms. Sanchez. Maybe we will bring you to Washington to do 
that.
    Colonel Janes, do you think that the Coast Guard has enough 
assets in South Florida? And if the Coast Guard had more 
resources in South Florida, how do you think they should use 
them? And would more resources help us in effectively 
decreasing drug trafficking in the region?
    Colonel Janes. Unquestionably, more resources would help 
us.
    Ms. Sanchez. What type of resources?
    Colonel Janes. I would defer to the professionals in the 
Coast Guard. As a former Army officer, and having watched the 
major expansion of the Coast Guard mission in recent years, I 
would take great hesitancy in trying to define for the Coast 
Guard what they need, if I didn't serve in the Coast Guard.
    But I do know their resources, they are stretched. Every 
time I watch with their different mission requirements and what 
they have been asked to do, funding, I am sure that they would 
agree they would do better had they had more resources. But I 
would not offer a specific example.
    Ms. Sanchez. The reason I ask is because you are sort of in 
charge of sort of trying to take a look at that, and, as you 
know, somebody who sits under the administration, Coast Guard, 
for example, isn't really allowed to tell us they need more 
resources unless the administration wants them to tell us they 
need more resources. Of course, they don't want them to tell us 
that, because the budget is already put forward.
    So I am just asking you, as an observer, what is going on 
down here. Do you think they could use more resources?
    Colonel Janes. Oh, I don't think there is any question.
    Ms. Sanchez. Would they be put to good use?
    Colonel Janes. I think it is absolutely imperative that we 
try to resource them for their mission. Their missions been 
expanded, but I have not seen a similar expansion of their 
resources in recent years. And their ability to respond would 
be, in my thinking, in conjunction with the local and national 
partners who could work in the region as they do.
    But certainly, one of the major points of my testimony is 
we are under-resourced to respond to the threat that we have.
    Ms. Sanchez. Thank you.
    Captain, the Coast Guard dry-docked the 123-foot cutters 
that would have been used in the waters off of south Florida 
last year. Has this impacted your operational readiness here in 
South Florida? And, again, do you have enough resources to 
properly fulfill your mission?
    Captain Schultz. Madam Chairman, kind of two questions in 
there, and I will deal with following the--Colonel Janes here.
    Regarding the resources, the administration budget as 
proposed does, in fact, ensure our ability to do all our 
missions. Were additional resources to be directed to the Coast 
Guard, I am clear that there is good applications we could make 
of those, and deliver more service.
    Regarding the 123-foot cutters, as you mentioned, that were 
taken out of service a handful of months ago, actually, close 
to a year ago now, we have come up with what we think are some 
fairly creative strategies to mitigate that gap. Here at Sector 
Miami, I have eight patrol boats that work under our tactical 
control, that are home port in our region. Four of those are 
110-foot cutters. The other four are 87-foot coastal patrol 
boats.
    We have worked with my fellow Sector Commanders in Key West 
and St. Petersburg. We have actually taken those platforms, 
those 110-foot platforms, that had a 16-person crew before, and 
we have actually married them us with the crews from those 
eight decommissioned, or eight out-of-service 123-foot cutters. 
We are now multi-crewing those vessels.
    A patrol boat that used to give us 2200 operational hours a 
year is now delivering 3500 operational hours through multi-
crewing. So the vessel is out more, the crews, the burden on 
the crews is no further time away from home. We are pushing the 
vessel harder. Obviously, the maintenance side of it, we have 
to sink a few more dollars into it. We have to really have a 
good strategy in place to deal with the challenges of running 
what are already old vessels harder. But I think we have hit 
that pretty well.
    Are we anxiously looking forward to new cutters coming 
through our recapitalization efforts? Absolutely. But here, in 
the interim, I think we have managed to close that gap and deal 
with that challenge fairly well.
    Ms. Sanchez. Okay. Mr. Dryden, your testimony says that the 
current state of technology in today's ports is not sufficient 
to track non-cooperative vessels and small boats. What steps do 
you think should be taken to address that issue?
    Mr. Dryden. Well, from a technology standpoint, you really 
have to have technology that can do things like pattern 
analysis, that can look, when they turn off--the cooperating 
vessels are going to turn on all their sensors. You are going 
to see them, and it is, you know, well-behaved vessels coming 
in are going to come in, and it is not going to be a problem.
    The legislation currently, I can't speak to. But I can 
speak to the projects that I know are underway that are 
partially funded at this point. And those projects are seeking 
to identify all of those, and look for anomalous behavior. So 
that, in fact, when you find something, somebody that should 
have--that should have their transponders on and they don't, 
that is the kind of thing that needs to light up in a Command 
Center, so they can take the action, when you have the small 
boats that aren't, in the first place, going to have those 
sensors.
    But, you know, the Coast Guard has attempted to push down 
the requirement and to get cooperation from small boaters. But, 
really, it is a daunting task without getting in the small 
boater's way.
    So, as they work through that to figure what is the right 
compromise, you really have to solve it with technology. And, 
again, I would--I would offer that, with the Safe Port Act and 
with the funding of the Safe Port Act, it really allows the 
Coast Guard to spend more consistent dollars over time to reach 
those objective.
    But when they are having to piecemeal it together, you 
know, when DHS and S&T apply dollars to do projects they think 
have value, you know, we are really taking too much time 
getting from start to finish, because they only have a certain 
number of dollars to use.
    So the promise of the Safe Port Act, and, hopefully, 
Command 21, being an acquisition program, is they are going to 
be able to lay all that out and actually execute on those. 
Today, what they are having to do is they are having to work 
around and find the dollars and, you know, kick and scream and 
figure out a way to fund some of these things.
    And the net result is it just takes too long to achieve it. 
They have the will to do it; it is just a matter of getting the 
dollars aligned with that to make it happen.
    Ms. Sanchez. Mr. Bilirakis, do you have another set of 
questions?
    Mr. Bilirakis. Just a couple. Thank you, Madam Chair.
    Ms. Sanchez. Uh-huh.
    Mr. Bilirakis. Again, Colonel Janes, do you believe it is 
possible to track small vessel threats in a meaningful manner, 
given the sheer volume of pleasure crafts in Florida's 
waterways?
    Colonel Janes. I don't believe we can do it with 
technology. I think it goes back to an awareness, and everybody 
in the waterways cooperating. I think technology has a role, 
but it would take an integrated system. And it would be very 
complex, not unlike a vehicle-borne, improvised explosive 
device that I mentioned before. Just too many, too spread, too 
hard.
    Mr. Bilirakis. Okay. Maybe, briefly, the rest of the panel 
can comment on that?
    Mr. Dryden. I would agree with that. I think that--I think 
that is correct.
    Mr. Bilirakis. Okay. Yes, sir?
    Captain Schultz. And I would add, Congressman, I think we 
can bring greater visibility, greater awareness to that 
population. Can you resolve all challenges with small boats? 
Probably not. But you can--we can do better than we are now 
with enhanced technologies. And, again, I mentioned the Command 
21. I think that is kind of where we are hoping to go, and, you 
know, the Coast Guard is looking at ways, partnering with all 
the stakeholders in that small arena. There is obviously 
strong--strong views there, but I think we can do more there.
    Can we completely solve it? You know, that will--that is 
yet to be determined, I guess.
    Mr. Bilirakis. Thank you very much.
    Mr. Dryden. Congressman, can I make one point? The 
Interagency Operational Centers that--that Command 21 or that 
the Safe Port Act dictate, that is exactly the kind of thing, I 
think, where it becomes the venue, it becomes the forum in 
which to do that. And there has already been test beds, for 
lack of a better work, but project through DOJ, such as Seahawk 
in Charleston, that have anticipated and kind of worked through 
a lot of the issues of, you know, what are the procedures, what 
are the lessons learned from trying to get a lot of different, 
disparate organizations to work together and share intel. I 
think with layer--and it is targeted as, you know, at least in 
part, as a model going forward for these Command Centers, for 
the Interagency Command Centers.
    So I think there is a lot to be learned there, where we can 
apply it and, hopefully, get closer to solving the problem by 
using that.
    Mr. Bilirakis. Thank you.
    Mr. Dryden, would you please explain how Command Bridge 
helps improve and facilitate actionable situational awareness 
and help watch-standers differentiate between what is important 
and what is not?
    Mr. Dryden. Sure. The biggest thing is being able to take 
all those disparate systems and fuse them together, because 
once you have done that, now the sum of these things, when you 
look at it, you can start applying those rules across 
everything.
    As an example, if you have a--if you have a vessel that you 
are just looking at with AIS, and you know where they are, you 
don't have the ability, without using something like Viz Tools, 
you don't have the ability to then take other amplifying data 
about who owns the vessel and things that may be out there. 
When did they file their 96-hour Notice of Arrival? Who are the 
crew? Who are the owners? All that other information that 
really isn't related to the sensor, not to the blip of AIS. It 
is related, really, to the bigger picture.
    So the whole idea behind achieving actionable situational 
awareness is light up the things, get the watch-standers who 
are in there all day long, get them to light up and say, okay, 
here is something you need to look at. Then they use their 
talents to determine is this something they need to explore 
further or not.
    But by doing that, and getting rid of all those manual 
processes, you have a lot fewer things get missed, because they 
are spending their time, you know, doing the grunt work. What 
you really want is light it up, apply those business rules.
    And if you think of it as a portfolio of rules, the old 
adage, when you have seen one port, you have seen one port. As 
you go to different AORs and different environments, 80 percent 
of it might be the same, or maybe 50 percent is the same. You 
have to have a way to be able to create rules for them, for 
those particular ports that may be different. You may not have 
a lot of drug trafficking that is going on in Seattle, where 
you have a lot going on in Miami.
    It is those kind of nuances that you have to be able to 
give them the ability to do themselves. And without some sort 
of tool, you have to--you are not going to achieve it. So the 
whole idea behind Viz Tools is to prove some of those things, 
and figure out the best way to, A, create the rules, but also 
to visualize that information.
    Whether it is Command Bridge or some other product really 
isn't the driver here. The driver is lessons learned, figuring 
out what works, what doesn't. And hopefully being able to apply 
the process going forward.
    Mr. Bilirakis. Thank you very much. Thank you, Madam Chair.
    Ms. Sanchez. You are welcome.
    Captain Schultz, according to your written testimony, 
Sector Miami is responsible for all Coast Guard missions 
spanning 165 miles southeast of Florida coastline and 
encompassing numerous counties. And within that region, there 
are five ports collectively handling more than 9,000 annual 
vessel arrivals. And the region is also home to two of the 
three largest cruise ship ports in the world, with nearly 
4,000,000 passengers moving through both Port Everglades and 
the Port of Miami annually.
    So how many boats are currently assigned to Sector Miami?
    Captain Schultz. We have nine Coast Guard cutters assigned 
to Sector Miami, and then I have four multi-mission small boat 
stations, with various levels of small boats assigned.
    Here in Miami Beach, I have--I think it is six hulls 
assigned to Miami Beach. I have actually seven in Miami, four 
up in Fort Lauderdale, I believe it is. Three in Lake Worth, 
three up in Fort Pierce. And we have some, you know, 
maintenance response hulls to support them when one goes out to 
service.
    Ms. Sanchez. So how many of these boats are currently at 
sea?
    Captain Schultz. Well, on a typical day, Madam Chair, 
generally we have one to two, on occasion three, patrol boats 
that are actually pushing the border out of the ports, you 
know, patrolling in the Straits of Florida.
    Closer to home, our small boat stations have resources on 
the water every day. They are not on the water 24 hours of 
every day, but they are on the water a certain portion of every 
day, doing various types of missions. They may be out doing a 
search and rescue case in the morning or the afternoon; they 
may be on a ports and waterway coastal security patrol, out 
looking at maritime critical infrastructure and key resources 
up the Miami River; they may be involved escorting a cruise 
ship out here in a patrol with model automatic weapons, doing 
what we call our ports, waterways and coastal security mission.
    So there is a presence on the water from those stations 
just about every day of the year, absent, you know, a bad day 
or two where weather precludes that. But there is a presence. I 
can't give you a specific number, because it varies, depending 
on the time of the day and the day of the week.
    Ms. Sanchez. How many people are currently assigned to 
Sector Miami?
    Captain Schultz. We have approximately 500 active duty 
Coast Guard men and women, about 150-plus Coast Guard 
Reservists, and then our auxiliary or volunteer ranks number 
somewhere between 1000 and 1100.
    Ms. Sanchez. And how many people and assets did Sector 
Miami contribute to the Coast Guard's efforts in Iraq?
    Captain Schultz. Technically, I don't have any assets 
that--that are contributing to Iraq. We had--there are two 
patrol boats, Coast Guard Cutter Baranof and Coast Guard Cutter 
Maui, that were home ported previously here in Miami.
    I am not sure exactly how they are reported on--on our 
books regarding their operating facility codes and things, but 
they have been deployed for--deployed to Operation Iraqi 
Freedom for some time now.
    Ms. Sanchez. Does the Coast Guard currently have the 
ability to track all of the vessels carrying illegal migrants 
and narcotics destined for south Florida?
    Captain Schultz. No.
    Ms. Sanchez. What percentage of these vessels do you think 
are tracked?
    Captain Schultz. Well, there is a two-part answer, Madam 
Chair, to that question. I guess when it comes with Cuban 
migrants here in south Florida, the Cuban migrants that we 
interdict at sea, we obviously can contain that number, know 
that number. Cuban migrants that make landfall here in south 
Florida come forward and they start their clock once they are 
here in the States, and certain rights are afforded to them. 
They can apply for citizenship a year and a day later, I 
believe it is.
    With migrants from other countries, generally, when they 
reach our shores, they tend to go underground. They don't self-
declare, so we really don't know the denominator in that 
equation. I couldn't give you a number, because I don't know 
the answer to that number, outside of the Cuban migrants.
    Ms. Sanchez. Okay. Colonel----
    Colonel Janes. Yes, ma'am.
    Ms. Sanchez. --you said in your testimony that port staff 
should receive daily intelligence updates from the Department 
of Homeland Security. Why?
    Colonel Janes. If there were a threat of a security 
incident, I don't think it is fair to all of a sudden start 
sending them information. I think if we have a system in place, 
that we share the information, our ports would get into a mode 
of routinely processing it, how they would handle it with their 
staff, and would probably talk through responses.
    If they learned of a threat that would be presented to a 
port in Seattle, I think our port--our ports are security 
conscious, that they would, in many instances, sit down and 
discuss how they might respond.
    I don't think that you can all of a sudden turn an 
intelligence-sharing process on and off. It ought to be on. The 
information they have a need to know, we should share with them 
so that they can develop their own internal apparatus on how to 
share it within the port and what they might do to respond.
    To me, it is a start of best practices and lessons learned, 
if they are able to participate.
    Ms. Sanchez. Does your have staff have the security 
clearances necessary to receive daily intelligence briefs? And 
what assistance has the Homeland Security Department given you 
in trying to attain those clearances?
    Colonel Janes. Madam Chair, I am in the process of getting 
my own clearance in place. So some of that, I could not truly 
answer. And each port would have to----
    Ms. Sanchez. And how long have you been trying?
    Colonel Janes. I am probably into two months now, to apply. 
And I have turned in the paperwork, fingerprinted, and 
whatever. And, again, I had a security clearance, Top Secret 
Cosmic Atomal, years ago. But when I left the Army, it expired, 
so I have to go through the process again. And I understand 
that.
    Ms. Sanchez. And how long do you anticipate, or have they 
told you that it would take, to get you cleared, if everything 
was according to as it should be?
    Colonel Janes. I--I cannot answer that. I will tell you 
when I receive it, from the--the time when I applied, when I 
get it. But right now, I couldn't tell you.
    Ms. Sanchez. In your testimony, you talked about 
regionalizing the government's national strategies. How would 
regionalization--can you sort of talk to that, and what you 
think that would look like? And I am interested in how it would 
improve the federal government's response to drug trafficking 
and terrorism down here in this sector.
    Colonel Janes. Madam Chair, as indicated when you read my 
bio, I worked four years in the National Terrorism Preparedness 
Institute, and work with the Department of Homeland Security.
    I am unaware of planning that--that goes down into a region 
or a state that would indicate how a drug threat assessment, 
which could be used to provide a terrorism weapon into our 
country, how those are discussed locally. I don't believe they 
are. And if they are, it is stovepipe within a particular law 
enforcement agency.
    Prior to 9/11, we had a problem sharing national 
intelligence. I submitted in my testimony, I think we have a 
similar problem sharing law enforcement information today. DEA, 
our high intensity drug trafficking areas, they communicate and 
share information, but it is not unified into one plan.
    Our three HIDTAs in Florida encompass 22 counties. We have 
67 counties. Next year, with the help of our Florida Department 
of Law Enforcement, and the Florida National Guard, we will 
capture a drug threat assessment for the other 45 counties. 
That will give us a state-wide drug threat assessment.
    A drug threat assessment could be used to parallel what 
could be a terrorism route through drug trafficking. And, 
likewise, our law enforcement, looking proactive, okay, what 
might we do about that.
    The reason I said regional, if you look at the State of 
Florida, it is not just the land that we physically occupy. Our 
Coast Guard has a major role. DEA, ICE, the Immigrations, 
Customs Border Protection, all of these are important players.
    I think a strategy that encompasses the Gulf Coast states 
that take I-10, where we know drugs are moving from Mexico and 
the western United States into Atlanta and right down into our 
state. The HIDTA that is located in Atlanta, I have talked to 
the Office of National Drug Control Policy, also with JIATF 
South, the Joint Interagency Task Force South, Admiral Nimick, 
we plan to meet with them in January and look at each other's 
different intelligence capabilities, merge those, I hope, and I 
believe, under our Florida Department of Law Enforcement 
leadership, into a unified law enforcement assessment of what 
the threat is. And then we can begin to operationalize what do 
we do about it.
    Because right now, it is kind of piecemeal. It is reactive, 
rather than proactive. The drug trafficking organizations are 
international. If there is a problem in Palm Beach County, and 
law enforcement in Palm Beach County turns up the heat on the 
drug trafficking organization, they will come north into 
Tallahassee, into Leon County. And as I talk to sheriffs in 
both counties, they are aware of that.
    There is not a unifying strategy in Florida to deal across 
the state. We are working on doing that. I believe Florida 
needs to be a part of a regional strategy. Likewise, the 
national response needs to be looked at regionally, nationally. 
And these resources, intelligence, and response, should be 
unified in a regional, national effort. And that is not done 
today.
    Ms. Sanchez. Thank you. My last question, and it is for all 
three of you, I have a Chief of Port Police in Los Angeles, 
Chief Cunningham. He has since left. But when I initially 
started several years ago on this Committee, he said there are 
three things you need to worry about at a port. One, what is in 
the box? What is in the container? Two, who is on the port? Who 
should be there and who shouldn't be there? And three, how are 
the different layers of government working together?
    And I am very interested to hear from you how are the 
layers of government working together here in South Florida. 
And I ask that because, of course, we saw the problems we had 
in Katrina, with local and state and federal denying each other 
access, or not talking to each other. And we recently saw what 
could be the same problem in the oil spill response in the Bay 
area in California just two weeks ago.
    So my question to you is: How do you all really get along? 
Are you talking to each other? Are you talking to all the 
different agencies that are involved if something should happen 
here or if we should try to stop something that we know may 
happen? And what do we need to work on?
    And maybe I will start down there and we will go down here.
    Colonel Janes. I, of course, do not work on a port on a 
daily basis, but I visit our ports and listen to them in the 
Council. I--uniformly, I hear that the cooperation on the port 
is strong.
    There is a resourcing issue; competition between security 
and commerce that gets to be a big issue.
    To your chief who responded to you in California, Madam 
Chair, I would add that I do believe you need a plan, a unified 
plan. And that is the point that I have made to you, that I 
don't believe we have. The partners and the cooperation is 
there, and they share information, but I think that we are 
doing better. Our ports are doing quarterly threat assessments. 
They have a port security plan that addresses their port.
    But it doesn't regionalize, and it looks only at the port. 
But the threat that impacts these points is air, land, and sea. 
And it goes back to the point that I think I have stressed. 
Cooperation is there, but I don't think we have fixed 
responsibility and have an adequate plan to address it.
    Ms. Sanchez. Thank you.
    Mr. Dryden. I think I should defer to the operators in the 
local area on this one.
    Captain Schultz. Madam Chair, I think the answer to that is 
a very strong positive message here in South Florida. I am 
personally involved with the Port Directors, with their 
designated Assistant Port Directors for Security. We meet on an 
at least monthly basis at an executive level.
    Here in the Port of Miami, up in Port Everglades, and Palm 
Beach, I have folks on my staff, port teams, as we call them, 
that come to work in the seaport. Here in the Port of Miami, 
which you visited this morning, there is a physical presence. 
They have office space there. They walk the docks. They are 
rubbing elbows with the Port Security Enforcement Specialists. 
They are there with the port staff. They are there with the 
Miami-Dade Police Department, who is actually a security 
provider under contract with the port.
    At the State level, my regional counterpart, the Major here 
in this part of the country, you know, we talk probably a 
couple times a week. As I mentioned earlier, we will meet with 
the Regional Domestic Security Task Force tomorrow. I co-chair 
the Maritime Working Group there with my State partner from 
Fish and Wildlife Commission. And we--that will be all the law 
enforcement agencies down here, and first responders that have 
a maritime component to their mission. We will get together, 
and we talk. We share e-mails.
    When there are new challenges, when the State in Florida 
Statute 311.11, 311.12 came out with some new requirements on 
quarterly threat assessments, this Maritime Working Group 
element of the RDSTF, the Regional Domestic Security Task 
Force, came up with a Seaport Security Assistance Team function 
to help, you know, work through those processes.
    So I think we are very well connected in that regard. There 
is always room for improvement, but with--you link this back to 
the cruise ships and the number of passengers here. There is 
more work than any one of our agencies can do alone. Miami is 
very much a maritime city. You mentioned meeting Admiral 
Stavridis recently, and he will talk about Miami, he will put 
the picture on the overhead and show you just how maritime it 
is, just from a visual standpoint.
    We, day-to-day, we had the Super Bowl 2007 here; Super Bowl 
is back in 2010. We have had the Governors' Conference on 
Global Warming. We had the State Department/FBI Conference on 
Combating Global Terrorism with 23, 25 minister-level folks in 
from foreign countries.
    We do water site security every day down here. And we don't 
just train, we actually live it. And it forces us to have 
mature relationships. So I would say a good part of my duties 
as Sector Commander, at my level, is working those 
relationships at my counterparts, you know, with them, and 
making sure my folks have that same level of connectivity.
    And, again, it is commitment. If you backed out the number 
of folks I have on the Port Teams, that is probably close to 20 
percent of my Sector staff. Not my outlying field units, but 15 
to 20 percent of my staff is out, deployed in the seaports. 
They are working with Fran Bonesack from the Miami River. Her 
folks come in for a weekly meeting.
    So, again, we can always do better, but we take that part 
very seriously down here. That is a part of the Domain 
Awareness that I think is probably something we can do and 
continue to build on.
    Lastly on that, we are working very closely with Customs 
and Border Protection. The Commandant of the Coast Guard, and 
the Commissioner of CBP signed a memorandum, an MOU, back in 
2006, looking at better cooperation. I have got--Monday 
morning, I had a CBP officer in my Command Center, briefing 
their activities in the port. My people are over there briefing 
the seaport, the CBP folks.
    CBP is building a joint fusion center down here, and we 
have committed bodies to be in that, to further enhance that 
sharing of information, intelligence, cooperation, 
collaboration.
    So I think there is a good new story there, and we are very 
focused on building on that good new story.
    Ms. Sanchez. All right. Mr. Bilirakis, do you have any 
questions left?
    Mr. Bilirakis. Just one last question.
    Ms. Sanchez. Okay. We will let you have the last question, 
then.
    Mr. Bilirakis. Thank you. Colonel Janes, in your opinion, 
how do we stand on aligning the TWIC card, aligning it with 
Florida's Port Access Control Credential? And how important is 
this to the State of Florida? And what can we do as a Committee 
to make this happen?
    Colonel Janes. We have made progress, Congressman, in the 
last month, but I am very concerned that we do not have 
positive steps from Transportation Security Administration to 
unify the two credential requirements before they begin to 
issue the TWIC in Florida.
    I think the issue is of paramount importance. I cannot 
overstate it, because it affects every port worker, it doubles 
costs, it is huge morale issues.
    Florida has been ready to issue a biometric credential 
since--since March of this year. We have actually delayed that 
in our efforts to align, because if we did not, it would double 
the cost, duplicate costs, cause inconvenience for everyone 
working on the port.
    Only recently, with the help of former Deputy Secretary 
Jackson, was he able to facilitate a discussion with TSA that 
the National Criminal Investigative Check information could be 
shared from the federal to the state level.
    Now, TSA still has concerns with how to make that happen. 
The privacy concerns, and my concern, is that they show up in 
January to begin to issue the TWIC, which meets the federal 
rule, but does not meet the Florida statute.
    So the concerns are very great. And there is a solution at 
hand.
    The way you could help is to ask TSA to align their 
schedule with the alignment of the credential. We do not need 
two credentials in Florida. We don't need to jeopardize 
commerce, force our businesses to go elsewhere, but just cause 
a break-down in bureaucracy between the federal and state level 
to align the systems.
    And anything you can do to encourage TSA to make this 
happen, because they have now been given the wherewithal, I 
believe, with the intervention of the Department of Homeland 
Security.
    Mr. Bilirakis. Thank you very much. Thanks for that update. 
Thank you, Madam Chair. Thank you for the panel testifying. 
Thank you, Madam Chair, for bringing this Committee to the 
State of Florida. Appreciate it.
    Ms. Sanchez. I thank my colleague from Florida, and I thank 
the witnesses for your testimony, and my colleague for his 
questions.
    And, as you know, we may ask you additional questions. We 
will do so in writing, and we expect that you will quickly get 
back to us on that.
    And hearing no further business, this Subcommittee stands 
adjourned.
    Once again, thank you to the people of Florida, Miami in 
particular, all the different government agencies who hosted us 
so graciously today. Thank you.
    Hearing no further business, this Subcommittee stands 
adjourned.
    [Whereupon, at 3:33 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
